                                NATIONAL SCIENCE FOUNDATION
                                      4201 Wilson Boulevard
                                    ARLINGTON, VIRGINIA 22230




     OFFICE OF
INSPECTOR GENERAL


  MEMORANDUM

  DATE:

  TO:                    Mary'F. Santonastasso, Director
                         Qivision of Lnstitution and Award Support

  FROM:
                                     u C&l
                           borah H. Cureton
                         Associate Inspector General for Audit

  SUBJECT:               Audit Report No. OIG-08-1-00 1
                         WGBH Educational Foundation

  Attached is the final audit report, prepared by Mayer Hoffman McCam P.C., an
  independent public accounting firm, on the audit of NSF award numbers ESJ-
  9804615lESI-0229297, ESI-0000610, ESI-0104700, and DUE-0202223 awarded to
  WGBH Educational Foundation (WGBH). The audit covers NSF-funded costs claimed
  from May 1, 1998 through December 3 1, 2005, aggregating to approximately $9.4
  million of NSF direct funded costs and $6.7 million of claimed cost sharing.

  Overall the auditors found that, except for $808,383 (8.6 percent of approximately $9.4
  million in total claimed costs) in questioned encumbrances, inadequately supported
  transactions, and unallocable costs for salaries, wages, fringe benefits, travel, other direct
  costs, and indirect costs claimed on three of the five awards audited, the costs claimed by
  WGBH appear fairly stated and are allowable, allocable, and reasonable for the audited
  NSF awards. Specifically, the auditors questioned $775,939 in other direct costs on
  award nos. ESI-980461510229297 because WGBH did not actually incur these costs until
  after its award had expired. Knowing that its award expired on September 30, 2004,
  WGBH inappropriately claimed $775,939 for salaries, fringe benefits, rent and indirect
  costs, that it had not and would not incur until the following fiscal year, in order to avoid
  losing access to these funds.

  We also questioned $25,707 in salaries, wages, fringe benefits, other direct costs and
  indirect costs on award nos. ESI-980461510229297 that did not relate to or benefit the
  NSF awards and $6,737 in travel, other direct costs and indirect costs on award nos. ESI-
  980461 510229297 and ESI-0000610 that did not have adequate supporting
  documentation.
The auditors identified one material and four reportable compliance and internal control
deficiencies in WGBH's financial management practices that contributed to the
questioned costs and could have a significant impact on WGBH's ability to administer its
current and future NSF awards. Specifically, WGBH did not comply with both NSF and
its own policies to only charge costs that it had actually incurred on its NSF awards.
Instead, on its September 30, 2004 Federal Cash Transactions Report, WGBH claimed
$775,939 for future employment and rental contract costs that, while allocable to and in
support of the NSF project, were not yet incurred and accordingly, were not valid for the
period in which they were charged. Further, the NSF appropriation supporting the grants
expired prior to WGBH receiving and paying for the contracted services. Therefore,
WGBH claimed costs that, under Federal Appropriations Law, were no longer available
to NSF for use in supporting the WGBH grants.

Also, WGBH was not able to locate supporting documentation for three of 65 1 non payroll
transactions testec$ and erroneously charged NSF awards for an additional three of 159
payroll transactions tested, which prevented WGBH from evidencing that all the costs
claimed on the NSF awards were allocable, allowable, and reasonable. According to
WGBH, some files were misfiled and there was an error in coding that was not caught
during the monthly review process that caused these problems.

In addition, WGBH does not have policies and procedures that require it to document its
review of service center charges to ensure that its actual costs are charged in compliance
with NSF and Federal requirements. This internal control deficiency was also noted in
WGBH's 2004 Fiscal Year A-133 Single Audit Report. Although, there was no indication
that the rates discriminated against NSF or federal awards, nor did the auditors find that the
rates were designed to recover more than actual costs, without documentation to evidence
WGBH's rates setting process, the auditors could not ensure the reliability or reasonableness
of the service charges assessed on NSF awards.

Finally, WGBH did not have adequate procedures to monitor and reconcile $3.2 million of
sub-award expenditures claimed in foreign currency and paid for in U.S. dollars, which
limited WGBH's ability to ensure that costs claimed on the award were accurate. The
claimed sub-award costs in foreign currency represents 66 percent of total costs claimed on
the NSF award.

If WGBH fails to address these compliance and internal control deficiencies, similar
problems may occur on other existing andlor future NSF awards granted to WGBH.

Accordingly, the auditors recommend that NSF request WGBH management to return
$775,939 of costs claimed under NSF award nos. ESI-980461510229297, enforce and
monitor adherence to generally accepted accounting principles and its policy to only
charge incurred and not anticipated future expenses to its lVSF awards; and establish and
implement proper policies and procedures that will prevent future claims for costs not yet
incurred.
The auditors also recommend that NSF ensure that WGBH develop and implement
written policies to ensure all source documentation for claimed costs under NSF awards
are properly maintained, and expand controls to include a second review to better identify
and correct any erroneous charges made to NSF awards. The auditors recommend that
NSF ensure that WGBH reinforce current policies and procedures to ensure that Principal
Investigators are properly reviewing costs charged to NSF awards. Finally, the auditors
recommend that NSF ensure that WGBH develop and implement policies and procedures
to: (a) ensure that service center rates are periodically reviewed and documented, and (b)
periodically perform and document an overall reconciliation of the actual costs incurred
in foreign currency by subawards versus advances paid by WGBH in U.S. dollars.

On October 11, 2007, WGBH responded to the audit findings and recommendations
made in the attached report, and in general it concurs with the factual accuracy of the
financial data presented but disagrees with questioning the $775,939 of encumbered costs
that it claimed on its September 30, 2004 Federal Cash Transactions Report, because it
believes those costs were claimed under the direction of NSF personnel and with the full
knowledge and consent of NSF. WGBH submitted additional support related to the
$6,737 in inadequately supported questioned costs; however the additional
documentation did not have any impact on the audit findings, because the documentation
provided did not evidence that the costs were incurred for the benefit of the NSF awards.
WGBH instituted a procedure to ensure service center charges are reviewed annually and
the reviews are documented. WGBH reported that otherwise their procedures are
adequate; however, a new managerial position in the Accounting Department was created
to ensure compliance with federal administrative requirements.

Please coordinate with our office during the resolution period to develop a mutually
agreeable resolution of the audit findings. The findings and recommendations in this
report should not be closed until NSF determines that all the recommendations have been
adequately addressed and that the proposed corrective actions have been satisfactorily
implemented.

We are providing a copy of this memorandum to Division Directors and a Program
Director in Education & Human Resources (EHR) and the Directors of Division of
Financial Management (DFM) and the Division of Grants and Agreements (DGA). The
responsibility for audit resolution rests with the Division of Institution and Award
Support, Cost Analysis and Audit Resolution Branch (CAAR). Accordingly, we ask that
no action be taken concerning the report's findings without first consulting CAAR at
703-292-8244.
OIG Oversight of Audit


To hlfill our responsibilities under Government Auditing Standards the Office of Inspector
General:

       Reviewed Mayer Hoffman McCann P.C 's approach and planning of the audit;

       Evaluated the qualifications and independence of the auditors;

       Monitored the progress of the audit at key points;

       Coordinated periodic meetings with Mayer Hoffman McCann P.C. and OIG
       management to discuss audit progress, findings, and recommendations;

       Reviewed the audit report, prepared by Mayer H o h a n McCann P.C., to ensure
       compliance with Government Auditing Standards and the NSF 01G Audit Guide;
       and

       Coordinated issuance of the audit report.

Mayer Hoffman McCann P.C. is responsible for the attached auditor's report on WGBH
and the conclusions expressed in the report. We do not express any opinion on the
Schedules of Award Costs, internal control, or conclusions on compliance with laws and
regulations.

We thank your staff for the assistance that was extended to our auditors during the audit.
If you have any questions regarding this report, please contact me at (703) 292-4985 or
Jannifer Jenkins at (703) 292-4996.



Attachment

cc: Joan Ferrini-Mundy, Division Director, EHRIDRL
    Valentine Kass, Program Director, EHRIDRL
    Linda L. Slakey, Division Director, EHRI'DUE
    Karen Tiplady, Director, DGA
    Shirl Ruffin, Director, DFM
    WGBH EDUCATIONAL FOUNDATION
          125 Western Avenue
           Boston, MA 02134
  National Science Foundation Award Numbers
           ESI-9804615/ESI-0229297
                 ESI-0000610
                 ESI-0104700
                 DUE-0202223

    Financial Audit of Financial Schedules and
          Independent Auditors’ Reports
For the Period May 1, 1998 to December 31, 2005




                            MAYER HOFFMAN McCANN P.C.
                        Conrad Government Services Division
                                  Certified Public Accountants
                                 2301 Dupont Drive, Suite 200
                                       Irvine, California 92612
                FOR OFFICIAL USE ONLY
             REPORT RELEASE RESTRICTION

THIS REPORT MAY NOT BE RELEASED TO ANYONE OUTSIDE THE
NATIONAL SCIENCE FOUNDATION WITHOUT ADVANCE APPROVAL
   BY THE NSF OFFICE OF INSPECTOR GENERAL. THE ONLY
   EXCEPTION IS AN AGENCY INVOLVED IN NEGOTIATING OR
   ADMINISTERING NSF AWARDS. THE INFORMATION IN THIS
 REPORT SHOULD BE TREATED AS CONFIDENTIAL AND MAY NOT
 BE USED FOR PURPOSES OTHER THAN ORIGINALLY INTENDED
  WITHOUT PRIOR CONCURRENCE FROM THE NSF OFFICE OF
                   INSPECTOR GENERAL
                                              WGBH EDUCATIONAL FOUNDATION

                                                              Table of Contents

                                                                                                                                                   Page

Executive Summary:
  Background ...................................................................................................................................     1
  Audit Objectives, Scope and Methodology....................................................................................                        3
  Summary of Audit Results .............................................................................................................             4
  Follow-up of Prior Audit Findings ..................................................................................................               7
  Exit Conference.............................................................................................................................       7

Compliance and Internal Controls:
  Independent Auditors’ Report on Compliance and Internal Control over Financial Reporting
    Based on an Audit Performed in Accordance with Government Auditing Standards ..................                                                  8

Financial Schedules and Supplemental Information:
   Independent Auditors’ Report on Financial Schedules..................................................................                            21
   Schedule A-1 - Schedule of Award Costs (Award No. ESI-9804615/ESI-0229297) .....................                                                 23
   Schedule A-2 - Schedule of Award Costs (Award No. ESI-0000610) ...........................................                                       24
   Schedule A-3 - Schedule of Award Costs (Award No. ESI-0104700) ...........................................                                       25
   Schedule A-4 - Schedule of Award Costs (Award No. DUE-0202223) .........................................                                         26
   Schedule B - Schedule of Questioned Costs ................................................................................                       27
   Schedule C - Summary Schedules of Awards Audited and Audit Results ....................................                                          32
   Notes to Financial Schedules .......................................................................................................             34

Appendix - Awardee’s Comments to Report
EXECUTIVE SUMMARY
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


BACKGROUND



We audited funds awarded by the National Science Foundation (NSF) to WGBH Educational
Foundation (WGBH) under Award Nos. ESI-9804615/ESI-0229297, ESI-0000610, ESI-0104700, and
DUE-0202223 for the period May 1, 1998 to December 31, 2005. WGBH, as a federal awardee, is
required to follow the cost principles specified in the Office of Management and Budget (OMB) Circular
A-122, Cost Principles for Non-Profit Organizations, and Uniform Administrative Requirements
contained in OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations.

WGBH is a non-profit television production organization established in 1951 in Boston, Massachusetts.
Since its inception, WGBH has expanded its operations to offer television and radio channels, a vibrant
Web site, and a wide range of multimedia productions ranging from IMAX films to online teaching tools
used in classrooms from coast to coast. WGBH’s main mission is to enrich people’s lives through
programs and services that educate, inspire, and entertain, fostering citizenship and culture, the joy of
learning, and the power of diverse perspectives.

Descriptions of the NSF awards we audited are as follows:

Awards ESI-9804615/ESI-0229297 – Volcano (original title)/Science NOW I (new title)
NSF awarded ESI-9804615 to WGBH for the period of May 1, 1998 to September 30, 2005 in the
amount of $1,753,450 for the original purpose of producing a 40 minute large format film about the
science of volcanology. Volcano: Lost City of Pompeii was to tell the story of a diverse group of
scientists working together, to understand better how the volcano named Vesuvius can reasonably be
expected to behave – today and in the years to come. The range of scientific disciplines involved in the
film included: geochemistry, geology, geophysics, remote sensing, plate tectonics, seismology,
archaeology, and volcanology. However, the grantee was not able to raise external private funds to
support the project. Therefore, in April 2003, NSF decided to stop the program and transfer the
remaining funds to another award. As result, the purpose of the funds awarded under Award No. ESI-
9804615 has been changed to support the effort of Award No. ESI-0229297 – NOVA: Leading Edge.
Under Award No. ESI-0229297, WGBH is producing twelve quarterly television magazine format
programs devoted to the public understanding of current scientific research. In early 2005, the program
names of ESI-9804615 and ESI-0229297 were changed to ScienceNow I and ScienceNow II,
respectively.



                                                   1
National Science Foundation
Office of Inspector General
(Continued)


In April 2003, NSF granted WGBH permission to use the $1,753,450 from ESI-9804615 for
expenditures related to award ESI-0229297. NSF awarded WGBH Award No. ESI-0229297 for the
period of June 1, 2003 through May 31, 2006 in the amount of $2,031,956 with a required cost sharing
contribution of $203,196. The purpose of ESI-0229297 is to produce twelve quarterly PBS television
magazine-format programs to educate high-school aged students in current scientific articles targeted
to teens in science publications, and to produce a website to supplement the television and magazine
articles. The programs will consider the significant areas of on-going research, present the scientists
who are conducting the research, portray research as an on-going endeavor and discuss the social
impact and ethical implications of major areas of research. Cumulative disbursements for Award Nos.
ESI-9804615/ESI-0229297 reported to NSF through September 30, 2005 was $2,390,657. WGBH
claimed cost sharing expenditures of $123,104.

Award ESI-0000610 – Elegant Universe
NSF awarded ESI-0000610 to WGBH for the period of September 1, 2000 to January 31, 2005 in the
amount of $838,163 for the purpose of producing a three-hour television series about the scientific
quest for a unified set of laws governing the universe. The programs, to be broadcast as part of the
ongoing NOVA service, will place special emphasis on the new development in physics known as string
theory. The series, planned for broadcast in the fall of 2002, communicated critical scientific concepts
through filmed experiments, carefully crafted explanations, and the latest in computer animation.
Outreach material was developed for the public and for teachers. NOVA Online produced a rich
companion Web site to allow viewers whose interest is piqued by the series to enhance their learning.
Cumulative disbursements for award no. ESI-0000610 reported to NSF through March 31, 2005 was
$838,163. WGBH claimed all of the $1,572,025 of cost sharing that it was required to provide for this
award.

Award ESI-0104700 – Peep & the Big Wide World
NSF awarded ESI-0104700 to WGBH for the period of September 1, 2001 to August 31, 2007 in the
amount of $5,911,050 for the purpose of producing and disseminating two seasons of a daily, half-hour
television science series and accompanying outreach for three to five year olds. The series will be
carried nationally as part of Discovery Television’s newly expanded Discovery kids. The project will
model a developmentally-appropriate process of inquiry and exploration, nurture young children’s
innate curiosity, catalyze further hands-on exploration of the world around them, and motivate parents
and caregivers to support and encourage these activities. The television series will be supported by a
comprehensive “Anywhere Science” outreach component of the project. “Anywhere Science” is being
designed to show parents and caregivers how important it is to support children’s curiosity and how
easy it is to engage in activities that help develop their science “habits of mind.” The outreach
campaign will be built around the new National Association for the Education of Young Children
professional development standards and Head Start’s science framework. Cumulative disbursements
for award no. ESI-0104700 reported to NSF through December 31, 2005 was $4,886,349. WGBH
agreed to provide $7,509,583 of cost sharing for this award and claimed cost sharing expenditures of
$5,020,296.

Award DUE-0202223 – Pathway to Technologies
NSF awarded DUE-0202223 to WGBH for the period of September 1, 2002 to August 31, 2006 in the
amount of $1,330,943 for the purpose of showcasing a diverse range of ground-breaking Advanced
Technology Education (ATE) programs currently operating in community colleges across the country,
through production and dissemination of a series of media-based products. A companion Web site is
expanding on the topics addressed in the videos, providing additional information through text,
interactive activities, and streamed clips from the series, and links to related sites. Dissemination
activities feature widespread distribution of copies of the video series, the overview CD-ROM, and print
                                                   2
National Science Foundation
Office of Inspector General
(Continued)


guides to facilitate use. In addition, through partnerships with the American Association of Community
Colleges (AACC), the American School Counselor Associate (ASCA), and Jobs for the Future Inc.,
there is use of common messaging to place listings and articles about the series in the online
community college guides published by Peterson’s, USA Today, and U.S. News and World Report.
The intention of the project is to bring community colleges to the forefront of consideration when
students and those who support them are exploring educational and career options. Cumulative
disbursements for award no. DUE-0202223 reported to NSF through December 31, 2005 were
$1,330,943.


AUDIT OBJECTIVES, SCOPE & METHODOLOGY

The objectives of our audit were to:

   1. Determine whether the Schedules of Award Costs of WGBH (Schedules A-1 through A-4)
      present fairly, in all material respects, the costs claimed on the Federal Cash Transactions
      Reports (FCTR) – Federal Share of Net Disbursements and the costs claimed, including cost
      sharing, are in conformity with Federal and NSF award requirements.

   2. Identify matters concerning instances of noncompliance with laws, regulations, and the
      provisions of the award agreements pertaining to the NSF awards and weaknesses in WGBH’s
      internal control over financial reporting that could have a direct and material effect on the
      Schedules of Award Costs and WGBH’s ability to properly administer, account for, and monitor
      its NSF awards.


Our audit was conducted in accordance with auditing standards generally accepted in the United States
of America, Government Auditing Standards (2003 Revision) issued by the Comptroller General of the
United States and the National Science Foundation Audit Guide (September 1996), as applicable.
Those standards and the NSF Audit Guide require that we plan and perform the audit to obtain
reasonable assurance about whether amounts claimed to NSF as presented in the Schedules of Award
Costs (Schedules A-1 through A-4) are free of material misstatements. An audit includes examining,
on a test basis, evidence supporting the amounts and disclosures in the Schedules of Award Costs. An
audit also includes assessing the accounting principles used and the significant estimates made by
WGBH, as well as evaluating the overall financial schedule presentation. We believe that our audit
provides a reasonable basis for our opinion.




                                                  3
National Science Foundation
Office of Inspector General
(Continued)




SUMMARY OF AUDIT RESULTS

An audit was performed on the costs claimed on the financial reports submitted to NSF by WGBH on
NSF Award Nos. ESI-9804615/ESI-0229297, ESI-0000610, ESI-0104700, and DUE-0202223, as well
as the cost sharing provided. These costs and the costs questioned as a result of our audit are shown
in the Schedules of Award Costs (Schedules A-1 through A-4) and are summarized as follows:


                                                  Claimed         Questioned
     NSF Award No.            Award Budget         Costs            Costs

    ESI - 9804615 &           $ 1,753,450         1,753,450        807,348
    ESI – 0229297               2,031,956           637,207           -
    ESI – 0000610                838,163            838,163           1,035
    ESI – 0104700               5,911,050         4,886,349                -
    DUE – 0202223               1,330,943         1,330,943            -

      Total                   $11,865,562         9,446,112        808,383

                                                  Claimed         Questioned
       Cost Sharing           Award Budget         Costs            Costs
    ESI – 0229297              $ 203,196            123,104            -
    ESI – 0000610               1,572,025         1,572,025            -
    ESI – 0104700               7,509,583         5,020,296            -

       Total                   $9,284,804         6,715,425            -

Except for the $808,383 (8.6 percent of approximately $9.4 million in total claimed costs) in questioned
encumbrances, unsupported transactions, and unallocable costs for salaries, wages, fringe benefits,
travel, other direct costs and indirect costs claimed on three of the five awards audited and described
below, we determined that the costs claimed by WGBH appear fairly stated and are allowable,
allocable, and reasonable for the audited NSF awards. Specifically, we questioned $775,939 in other
direct costs on award nos. ESI-9804615/0229297 because WGBH claimed costs that it had not
incurred on its September 30, 2004 Federal Cash Transactions Report for salaries, fringe benefits, rent
and indirect costs, that it planned to incur in the following fiscal year. WGBH claimed these costs in
advance of actually incurring the expenses in order to avoid losing these funds because the NSF
funding appropriation was due to expire on September 30, 2004. We also questioned $25,707 in
salaries, wages, fringe benefits, other direct costs and indirect costs on award nos. ESI-
9804615/0229297 that did not relate to or benefit the NSF awards and $6,737 in travel, other direct
costs and indirect costs on award nos. ESI-9804615/0229297 and ESI-0000610 that did not have
adequate support documentation.


                                                   4
National Science Foundation
Office of Inspector General
(Continued)


We noted one material and four reportable compliance and internal control deficiencies in WGBH’s
financial management practices that contributed to the questioned costs and could have a significant
impact on WGBH’s ability to record, process, summarize, and report financial data, and effectively and
efficiently administer the funds in a manner that is consistent with NSF and other Federal laws and
regulations. Specifically, WGBH did not comply with its own policies to only charge costs actually
incurred to its NSF awards. WGBH claimed $775,939 in future employment and rental contract costs
that were necessary to complete the project but were not yet incurred on award nos. ESI-
9804615/0229297, instead of accruing and claiming expenses for the appropriate time period as
required by NSF and WGBH’s accounting procedures. Based on WGBH’s interpretation of NSF’s
instruction to claim expenses and encumbrances prior to the expiration of the NSF funding, WGBH
claimed the future expenses to prevent losing NSF funding that was due to expire and be de-obligated
by NSF, which would have reduced the total of the grants by the expired amount. As a result, WGBH
claimed expenses on its FCTR that it had not incurred contrary to generally accepted accounting
principles1 and in violation of applicable Federal appropriation laws which prohibit charging costs on an
expired appropriation. WGBH should adhere to its accounting policies and procedures to ensure claims
made on its NSF awards are not overstated and ensure that expired appropriated funds are not
expended in compliance with NSF and federal requirements.

WGBH also needs to improve its control processes to ensure that proper documentation is maintained
to support all award charges and ensure that all charges are recorded accurately on all NSF awards.
WGBH was not able to locate supporting documentation for three out of 651 transactions tested and
erroneously charged NSF awards for an additional three transactions out of 159 transactions tested,
which prevented WGBH from evidencing that all the costs claimed on the NSF awards were allocable,
allowable, and reasonable. According to WGBH, some files were misfiled and there was an error in
coding that was not caught during the monthly review process that caused these problems.

In addition, WGBH does not have policies and procedures that require that it document its review of
service center charges to ensure that its actual costs are charged in compliance with NSF and Federal
requirements. WGBH utilizes internal service centers to provide services such as telephone, copier,
and information technology (IT) to all the other WGBH departments. Service centers track and bill each
of the departments based on their usage for the month. Usage rates should be applied on a
nondiscriminatory basis between federal awards and the other users of the service center. However,
while WGBH does review its usage rates periodically, it does not document the process it uses to
determine the rates to charge each user. This internal control deficiency was also noted in WGBH’s
2004 Fiscal Year A-133 Single Audit Report. Although, there was no indication that the rates
discriminated against NSF or federal awards, nor did we note any indication that the rates were
designed to recover more than actual costs, without documentation to evidence WGBH’s rates setting
process, we could not ensure the reliability or reasonableness of the service charges assessed on NSF
awards.

Finally, WGBH does not have adequate procedures to monitor and reconcile $3.2 million of sub-award
expenditures claimed in foreign currency and paid for in U.S. Dollars, which limits WGBH’s ability to
ensure that costs claimed on the award are accurate. The claimed sub-award costs in foreign currency
represents 66 percent of total costs claimed on the NSF award.




1
  This action had no impact on WGBH’s financial statements because the accounting entry recording the future expenses was
reversed prior to fiscal year end.
                                                           5
National Science Foundation
Office of Inspector General
(Continued)


Improving controls to prevent these deficiencies will help ensure that only allowable costs are charged
to the NSF awards. If WGBH fails to address these compliance and internal control deficiencies, similar
problems may occur on other existing and/or future NSF awards granted to WGBH.

To address these compliance and internal control deficiencies, we recommend that the Director of
NSF’s Division of Institution and Award Support (DIAS) ensure that WGBH (1a) return $775,939 of
costs claimed under NSF award nos. ESI-9804615/0229297, because WGBH incurred these costs
after the expiration date of the appropriation when NSF no longer had access to these funds; (1b)
strictly enforce and monitor adherence to Generally Accepted Accounting Principles and its policy to
only charge incurred and not anticipated future expenses to its NSF awards; (1c) establish and
implement proper policies and procedures that will prevent future claimed costs not yet incurred and
claims charged against expired funds; (2) ensure all source documentation supporting transactions
charged to the NSF awards are properly maintained and evidence that the costs claimed are in support
of the NSF award; (3) expand controls to include a second review to better identify and correct
mischarging errors and reinforce current policies and procedures to ensure that the Principal
Investigators are properly reviewing costs charged to the NSF awards; (4) develop policies and
procedures to ensure the reviews of the service center rates are documented; and (5) develop policies
and procedures to periodically perform and document an overall reconciliation of the actual costs
incurred by subawards in Canadian Dollars versus advances paid by WGBH in U.S. Dollars.

WGBH responded to the draft report on October 11, 2007. In its response, WGBH concurs with the
factual accuracy of the financial data presented but disagrees with questioning the $775,939 of
encumbered costs that it claimed on its September 30, 2004 Federal Cash Transactions Report
because those costs were claimed under the direction of NSF personnel and with the full knowledge
and consent of NSF. WGBH does not believe that it should be forced to reimburse the Government for
funds it was instructed by NSF to claim. WGBH provided documentation or an explanation for the
inadequately supported costs that were questioned during the audit and for one of the three
transactions questioned as not relating to the NSF awards. WGBH disagrees that there is a need to
revise many of its existing policies and procedures in that they provide for proper review of charges
made to NSF awards, including prevention of charging future expenses to an expired award, adequate
record retention, and proper reconciliation of Canadian subcontract costs. WGBH indicated that it has
instituted a procedure to ensure that the service center rates are reviewed annually and that the
reviews are documented. WGBH also indicated that a new managerial position has been created in the
Accounting Department to ensure compliance with federal administrative requirements.

Our findings and recommendations remained as stated because the encumbered costs were not
incurred, the appropriation had expired, and the additional documentation provided did not evidence
that the costs were incurred for the benefit of the NSF awards.

The findings in this report should not be closed until NSF has determined that all the recommendations
have been adequately addressed and the corrective actions have been satisfactorily implemented.
WGBH's response has been summarized within the report and is included in the Appendix attached to
this report. Attachments A through J, included in WGBH's response contained email correspondence,
proposed supporting documentation, accounting reports, NSF Grant Policy excerpts, and materials
related to the corrective actions WGBH had taken with regard to policies and procedures newly
instituted at WGBH to address internal control and compliance issues. Because the attachments A
through J of WBGH's response are voluminous, they are contained in a separate volume of this report
and are available upon request from the NSF OIG.


                                                  6
National Science Foundation
Office of Inspector General
(Continued)


For a complete discussion of these findings, refer to the Independent Auditors’ Report on Compliance
and Internal Control over Financial Reporting Based on an Audit Performed in Accordance with
Government Auditing Standards.

FOLLOW-UP OF PRIOR AUDIT FINDINGS

WGBH Educational Foundation has never been audited by NSF, but its programs have been audited as
a major program in the OMB A-133 Single Audit Report. The A-133 Single Audit covering NSF awards
during an audit for fiscal year-end August 31, 2004, identified two findings relating to NSF awards. One
finding had to do with the purpose of travel not being adequately documented and airfare support not
being retained. The second finding was for the lack of documentation supporting the review of service
center charges. During the audit, we found that retaining and locating documentation for all claimed
costs continues to be a challenge for WGBH. We also noted that WGBH was in the process of
developing procedures to ensure the review of service center rates is properly documented.

EXIT CONFERENCE

An exit conference was held on August 21, 2006 at WGBH Educational Foundation located in Boston,
Massachusetts. Preliminary findings and recommendations noted during the audit were discussed with
those in attendance. WGBH was informed that the preliminary findings and recommendations were
subject to final review by NSF and the report may include additional findings and recommendations
and/or omit certain items discussed.

WGBH Educational Foundation
          Name                         Title
   xxxxxxxxxxxxxxx                xxxxxxxxxxxxxxx

Mayer Hoffman McCann P.C. – Conrad Government Services Division
           Name                 Title
   xxxxxxxxxxxxxxx         xxxxxxxxxxxxxxx
   xxxxxxxxxxxxxxx         xxxxxxxxxxxxxxx




                                                   7
COMPLIANCE AND INTERNAL CONTROLS
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


   INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND INTERNAL CONTROL OVER
       FINANCIAL REPORTING BASED ON AN AUDIT PERFORMED IN ACCORDANCE
                    WITH GOVERNMENT AUDITING STANDARDS

We have audited the costs claimed as presented in the Schedules of Award Costs (Schedules A-1
through A-4), which summarize the financial reports submitted by WGBH Educational Foundation
(WGBH) to the National Science Foundation (NSF) and claimed cost sharing for the awards and
periods listed below and have issued our report thereon dated August 21, 2006.

             Award Number                   Award Period                   Audit Period

     ESI – 9804615/ESI–0229297           05/01/98 – 05/31/06            05/01/98 – 09/30/05
     ESI – 0000610                       09/01/00 – 01/31/05            09/01/00 – 01/31/05
     ESI – 0104700                       09/01/01 – 08/31/07            09/01/01 – 12/31/05
     DUE–0202223                         09/01/02 – 08/31/06            09/01/02 – 12/31/05

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 through A-4 in
accordance with auditing standards generally accepted in the United States of America, the standards
applicable to financial audits contained in Government Auditing Standards issued by the Comptroller
General of the United States (2003 revision), and the National Science Foundation Audit Guide
(September 1996), as applicable. These standards and the National Science Foundation Audit Guide
require that we plan and perform the audit to obtain reasonable assurance that the financial schedules
are free of material misstatement.

             COMPLIANCE WITH LAWS AND REGULATIONS AND OTHER MATTERS

Compliance with applicable federal laws, regulations, and NSF award terms and conditions is the
responsibility of WGBH’s management. As part of obtaining reasonable assurance about whether the
financial schedules are free of material misstatement, we performed tests of WGBH’s compliance with
certain provisions of applicable laws, regulations, and the NSF award terms and conditions,
noncompliance with which could have a direct and material effect on the determination of the financial
schedule amounts. However, providing an opinion on compliance with those provisions was not an
objective of our audit and, accordingly, we do not express such an opinion. The results of our tests
disclosed instances of noncompliance that are required to be reported under Government Auditing
Standards and the National Science Foundation Audit Guide which are described in Finding Nos. 1
through 5, below.




                                                  8
National Science Foundation
Office of Inspector General
(Continued)


                       INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of WGBH is responsible for establishing and maintaining internal control. In fulfilling
this responsibility, estimates and judgments made by management are required to assess the expected
benefits and related costs of internal control policies and procedures. The objectives of internal control
are to provide management with reasonable, but not absolute assurance that assets are safeguarded
against loss from unauthorized use or disposition, and that transactions are executed in accordance
with management’s authorization and recorded properly to permit the preparation of financial schedules
in accordance with accounting principles prescribed by the National Science Foundation. Because of
inherent limitations in any internal control, misstatements due to errors or fraud may nevertheless occur
and not be detected. Also, projection of any evaluation of internal control to future periods is subject to
the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.
In planning and performing our audit of the Schedules of Award Costs (Schedules A-1 through A-4) for
the period May 1, 1998 to December 31, 2005, we considered WGBH’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedules and not to provide an opinion on the internal control over financial reporting.
Accordingly, we do not express such an opinion.

However, we noted certain matters described below involving the internal control over financial
reporting and its operation that we consider to be reportable conditions under standards established by
the American Institute of Certified Public Accountants. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting, that, in our judgment, could adversely affect the WGBH’s ability to record, process,
summarize, and report financial data consistent with the assertions of management in the financial
schedules. Reportable conditions that we identified are described in Finding Nos. 1 through 5, below.

A material weakness is a reportable condition in which the design or operation of one or more of the
internal control elements does not reduce, to a relatively low level, the risk that misstatements caused
by error or fraud in amounts that would be material in relation to the financial schedules being audited
may occur and not be detected within a timely period by employees in the normal course of performing
their assigned functions. Our consideration of the internal control over financial reporting would not
necessarily disclose all matters related to internal control over financial reporting that might be
reportable conditions, and, accordingly, would not necessarily disclose all reportable conditions that are
also considered to be material weaknesses. We consider the reportable condition identified in Finding
No. 1 to be a material weakness.

Finding No. 1 – Future Costs Charged to Expired Appropriation Funding
WGBH claimed costs that were not yet incurred to prevent losing $775,939 of funding that was due to
expire and be de-obligated which would have reduced the total grant by the expired amount. WGBH
claimed on its September 30, 2004 FCTR $775,939 in accrued costs related to award no. ESI-
9804615, that it actually incurred after the closure date of the FCTR and the expiration of the NSF
funding appropriation. Detail accounting records supporting the September 30, 2004 FCTR indicated
that WGBH claimed $1,033,786 of expenditures for grant awards ESI-9804615/ESI-0229297
(Volcano/Science NOW). Further review of the $1,033,786 indicated that $775,939 of this amount was
for expenditures (salaries, benefits, rent, and indirect costs) to be incurred in WGBH’s next fiscal year
(2005) to produce necessary television segments for the NSF award. In addition, the grant award was
funded from a 1998 congressional appropriation, which lapsed on September 30, 2004, and WGBH
incurred costs after the closure date of that appropriation. In other words, WGBH claimed funds that it
                                                    9
National Science Foundation
Office of Inspector General
(Continued)


needed to pay for future expenses, which was not in accordance with its own accounting practices,
generally accepted accounting principles, appropriation accounting, OMB Circular A-110’s definition of
allowable outlays and expenditures, and the NSF Grant Policy Manual.

United States Code, Title 31 – Money and Finance, Subtitle II – The Budget Process, Chapter 15 –
Appropriation Accounting, Subchapter IV – Closing Accounts, Section 1502 states in part:

     (a) The balance of an appropriation or fund limited for obligation to a definite period is available
     only for payment of expenses properly incurred during the period of availability or to completed
     contracts properly made within that period of availability and obligated consistent with section
     1501 of this title. However, the appropriation of fund is not available for expenditure for a period
     beyond the period otherwise authorized by law.

United States Code, Title 31 – Money and Finance, Subtitle II – The Budget Process, Chapter 15 –
Appropriation Accounting, Subchapter IV – Closing Accounts, Section 1553 states in part:

     (a) After the end of the period of availability for obligation of a fixed appropriation account and
     before the closing of that account under section 1552(a) of this title, the account shall retain its
     fiscal-year identity and remain available for recording, adjusting, and liquidating obligations
     properly chargeable to that account.

United States Code, Title 31 – Money and Finance, Subtitle II – The Budget Process, Chapter 15 –
Appropriation Accounting, Subchapter IV – Closing Accounts, Section 1552 states in part:

     (a) On September 30th of the 5th fiscal year after the period of availability for obligation of a fixed
     appropriation account ends, the account shall be closed and any remaining balance (whether
     obligated or unobligated) in the account shall be canceled and thereafter shall not be available for
     obligation or expenditure for any purpose.

OMB Circular A-110, Uniform Administrative Requirements for Grants and Other Agreements with
Institution of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart A, Section 2 -
Definitions state in pertinent part:

     (a) Accrued expenditures means the charges incurred by the recipient during a given period
     requiring the provision of funds for: (1) goods and other tangible property received; (2) services
     performed by employees, contractors, subrecipients, and other payees; and, (3) other amounts
     becoming owed under programs for which no current services or performance is required.

National Science Foundation Grant Policy Manual, Section 420 states in pertinent part:
     (d) Disbursements/Outlays/Expenditures are charges made to the project during a given period
     for:
          1. goods and other tangible property received;
          2. services performed by employees, subawardees, contractors, and other payees.

     (h) Grantee Obligations are the amounts of orders placed, subawards issued, contracts awarded,
     services received and similar transactions during a given period that will require payment by the
     awardee.



                                                    10
National Science Foundation
Office of Inspector General
(Continued)


Finally, it was not WGBH’s normal accounting policy or procedure to claim expenditures that had not
been incurred by the end of the FCTR reporting period.

Accordingly, WGBH can only claim costs to grants funded with currently available NSF appropriations
and only for goods received or services that have been performed.

However, appropriation no. 0498, which partially funded grant award ESI-9804615 commenced in
Fiscal Year (FY) 1998 and lapsed on September 30, 2004, as such, it had to be financially closed by
NSF as mandated by 31 U.S.C §1552(a). Accordingly, on June 4, 2004 NSF’s Division of Financial
Management (DFM) sent an e-mail to WGBH stating in part that Grant monies that are funded by the
Fiscal Year 1998 appropriation will lapse on September 30, 2004. “We will financially close (de-
obligate all unobligated balances) for all grants with 1998 appropriations in late September. Please
alert the appropriate principal investigator’s department of this situation. It is acceptable to report
encumbrances as cost on the FCTR when a grant is due to be financially closed. If possible, report
final expenditures on the June 30, 2004 FCTR.” As a result, WGBH claimed on its September 30, 2004
FCTR costs that it did not actually incur until after September 30, 2004 and claimed these costs against
an appropriation that lapsed on that date.

As a result, WGBH overstated the accrued and paid expenses that it claimed on its September 30,
2004 FCTR by $775,939. Since WGBH had not actually incurred these costs as of September 30,
2004 and the award funds were no longer available, WGBH claimed monies that NSF no longer had
access to. By incurring expenses after September 30, 2004, WGBH violated applicable federal
appropriation laws, which prohibit charging an appropriation after September 30th of the 5th fiscal year
after its period of availability for obligation ends. WGBH also violated generally accepted accounting
principles and its own accounting procedures which indicate that WGBH can only claim expenditures
that it has incurred by the end of the reporting period on its FCTR. This action had no impact on
WGBH’s financial statements because the accounting entry recording the future expenses was
reversed prior to fiscal year end.

Therefore, we have recalculated expenditures through September 30, 2004 and questioned the
remaining balance of $775,939 because the expenditures had not been incurred by WGBH and the
appropriation to pay these expenditures after September 30, 2004 had expired. (Also see Schedule of
Questioned Costs, Schedule B, Note B-4).

       $ 906,324      1998 congressional Appropriation (expiring 9/30/04)
          (45,220)    Costs claimed and incurred on or before 6/30/04 FCTR
          (85,165)    Recalculated actual costs incurred for the month of September 2004
       $ 775,939      Total Questioned Costs

Recommendation No. 1
We recommend that NSF’s Director of the Division of Institution and Award Support (DIAS) request
WGBH to (a) return $775,939 of costs claimed under NSF award nos. ESI-9804615/0229297, because
WGBH incurred these costs after the expiration date of the appropriation when NSF no longer had
access to these funds; (b) strictly enforce and monitor adherence to Generally Accepted Accounting
Principles (GAAP) and its policy to only charge incurred and not anticipated future expenses to its NSF
awards; and (c) establish and implement proper policies and procedures that will prevent future claims
for costs not yet incurred and claims charged against expired funds.



                                                  11
National Science Foundation
Office of Inspector General
(Continued)


Awardee Comments

WGBH disagreed with the questioned encumbrance amount of $775,939 and maintains that the costs
were claimed under the direction of NSF personnel with the full knowledge and consent of NSF. The
awardee does not believe that it should be forced to reimburse the Government for money that NSF
instructed them to claim.

See Appendix attached to this report for the response from WGBH.

Auditor’s Response

Notwithstanding WGBH’s response, WGBH claimed costs that it had not incurred on its September 30,
2004 Federal Cash Transaction Report for salary, fringe benefits, rent and indirect costs, but that it
planned to incur in the following fiscal year. WGBH claimed these costs in advance of actually incurring
the expenses in order to avoid losing these funds because the NSF funding appropriation was due to
expire on September 30, 2004. The claiming of these costs clearly was not in accordance with
WGBH’s own accounting practices, generally accepted accounting principles, appropriation accounting,
and OMB Circular A-110’s definition of allowable outlays and expenditures and the NSF Grant Policy
Manual. Accordingly, our Finding and Recommendation remains as previously stated. This report
finding should not be closed until NSF determines that the grantee implemented acceptable corrective
actions that address our recommendation.

Finding No. 2 - Transactions Lacking Supporting Documentation
During our tests of 651 expenditures representing 38.60% ($3,641,554) of total costs charged to the
NSF grants, we noted three transactions totaling $6,737 that lacked sufficient source documentation to
support that the expenditures were allocable and allowable to the NSF grants. Specifically, we noted
the following:

                                   Exception Noted                                  Amount
        One transaction for travel expenses of $301 was supported with a            $   223
        journal entry with no other source documentation to support the costs.
        Only a portion of the cost was charged to NSF. (Volcano/Science
        NOW award)
        One travel transaction for $2,721 was only supported with an                       898
        employee travel expense report. Receipts for the costs were not
        provided to support the costs. Only a portion of the cost was charged
        to NSF. (Elegant Universe)
        Other direct costs of $6,373 were allocated to the grant; however, no            4,722
        source documentation was provided to support the costs or the
        allocation. Only a portion of the $6,373 was charged to NSF.
        (Volcano/Science NOW)
        Indirect costs associated with the items noted above                               894
                                                                         Total       $   6,737

OMB Circular A-110, Uniform Administrative Requirements for Grants and Other Agreements with
Institution of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart C, Section 21,
Sub-Section B, states in part:



                                                  12
National Science Foundation
Office of Inspector General
(Continued)


   (b) Recipients’ financial management systems shall provide for the following:

       (1) Accurate, current and complete disclosure of the financial results of each federally-
           sponsored project or program in accordance with Section 52….

       (3) Effective control over and accountability of all funds, property and other assets…

       (7) Accounting records including cost accounting records that are supported by source
           documentation.

National Science Foundation, Grant General Conditions (GC-1), Article 23 states in part:

   (a) Financial records, supporting documents, statistical records, and other records pertinent to this
       award shall be retained by the awardee for a period of three years from submission of the final
       reports specified in Article 16.

WGBH believes that the documentation was misfiled and would have been properly reviewed and
approved prior to payment. However, without sufficient documentation, we were unable to determine if
the expenses were allowable and allocable to the NSF grants. As such, we have questioned a total of
$6,737 of salary, other direct costs, and indirect costs. (Also see Schedule of Questioned Costs,
Schedule B, Notes B-3, B-4 and B-5.) A similar finding related to WGBH’s inability to locate and
provide adequate support for travel costs was also noted in WGBH’s prior A-133 report (FYE 8/31/04).
Specifically, the report noted that the purpose of travel was not being adequately documented and
airfare support was not being retained.

Recommendation No. 2
We recommend that NSF’s Director of DIAS instruct WGBH to develop and implement written policies
and procedures to ensure all source documentation supporting transactions charged to NSF awards
are properly maintained and evidence that the costs claimed are in support of the NSF award.

Awardee Comments

WGBH has written policies and procedures regarding source documentation for supporting
transactions. We have reviewed these documents, and respectfully assert that our existing policies and
procedures are fully compliant with federal documentation requirements.

As noted in the draft audit report, you tested a total of 651 transactions, and were unable to find
supporting documents for three transactions during the audit. Subsequent to the audit, WGBH was able
to locate supporting documentation for two of these transactions.

With this additional documentation, we can offer the following explanation for each transaction:

   •   Transaction #1 -- We have the following supporting documentation for this transaction: a journal
       entry of Pcard (purchasing card) charges for $301.00; a Pcard statement with a charge of
       $301.00 for ground transportation; a charge slip for $301.00; an invoice for $301.00; individual
       (2) trips slips for $149.10 and $146.00.

   •   Transaction #2 -- This transaction for $2,721 (NSF amount $898) had only the expense report
       as part of the documentation. The expense report indicated that a transaction receipt (American
                                                   13
National Science Foundation
Office of Inspector General
(Continued)


       Express) was attached to the report. We suspect that during the process of converting our files
       to digital media, the receipt was lost or misfiled. However, we can assure you that the
       employee’s supervisor and the Manager of Accounting Services approved the payment of the
       expenses in accordance with our Travel policy, which requires original receipts to be attached
       when an expense report is submitted. We believe that given the circumstances outlined above,
       the expense should be allowed.

   •   Transaction #3 -- We have the following supporting documentation for this transaction: a
       production insurance list for period 7/01/04 through 9/30/04 (showing dates of production,
       estimated production costs, insured costs, rate, total per production); a journal entry showing
       charge of $6,373.00 to NOVA scienceNOW; an accounts payable payment request and invoice
       that covered this expense.

The overhead of $894 is a function of applying the federally approved rates to the direct expenses in
the transactions noted above.

We respectfully dispute the recommendation in the draft audit report, as we believe that these three
transactions represent exceptional circumstances and our current record retention policies and
procedures are adequate and in accordance with applicable requirements.

Auditor’s Response

We reviewed the additional documentation provided and have the following comments:

   •   Transaction 1 – Although supporting documentation was provided, the purpose of the travel was
       not adequately documented to determine the relationship and benefit to the NSF grant being
       charged.

   •   Transaction 2 – No additional new documentation was provided from that originally provided
       during fieldwork.

   •   Transaction 3 – Although supporting documentation was provided, the allocation basis for the
       amount allocated to the NSF grant could not be determined from the information provided.

Accordingly, notwithstanding WGBH’s response, the finding, recommendation and questioned costs
remain unchanged. In addition, WGBH should reinforce current policies and procedures to ensure that
supporting documentation is adequately denoted to 1) establish the relationship and benefit of the cost
being charged to an award, and 2) provide a clear basis for any costs allocated to an award. This
report finding should not be closed until NSF determines that the grantee implemented acceptable
corrective actions that address our recommendation.


Finding No. 3 - Transactions Not Related to the Award
WGBH claimed costs not related to award nos. ESI-9804615/ESI-0229297, which led to an
overstatement of $25,707 in costs claimed on the awards. During our tests of 159 transactions
amounting to $852,893 (35.7% of the total costs charged to award nos. ESI-9804615/ESI-0229297), we
noted three transactions that were not related to the project. WGBH agreed that these transactions
were not related to the NSF project and that they were mistakenly charged to the grants. WGBH made
journal entries during our audit field work to remove the costs, but those costs were already claimed on
the FCTR. The following are the non-related transactions.
                                                  14
National Science Foundation
Office of Inspector General
(Continued)




                                    Exception Noted                                   Amount
         One payroll transaction (pay period ending 3/25/05) was identified by        $ 6,302
         the Coordinating Producer as not benefiting the NSF project. Only a
         portion of the cost was charged to NSF. (Volcano/Science NOW)
         One payroll transaction (pay period ending 8/31/03) was identified by             8,403
         the Coordinating Producer as not benefiting the NSF project. Only a
         portion of the cost was charged to NSF. (Volcano/Science NOW)
         Fees for musician work not related to the grant. (Volcano/Science                 4,601
         NOW grant) Only a portion of the cost was charged to NSF.
         Associated fringe benefits for the questioned salary costs identified             2,990
         above.
         Associated indirect costs for the questioned costs identified above.             3,411
                                                                            Total      $ 25,707

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Subpart A – Basic Considerations,
Section 4 – Allocable Costs, states in part:

   (a) A cost is allocable to a particular cost objective, such as a grant, contract, project, service,
       other activity, in accordance with the relative benefits received. A cost is allocable to a
       Federal award if it is treated consistently with other costs incurred for the same purpose in
       like circumstances and if it:

       (1) Is incurred specifically for the award.

       (2) Benefits both the award and other work and can be distributed in reasonable
           proportion to the benefits received…

   (a) Any cost allocable to a particular award or other cost objective under these principles may not
       be shifted to other Federal awards to overcome funding deficiencies, or to avoid restrictions
       imposed by law or by the terms of the award.

The documentation supporting the transactions indicated that the costs should have benefited another
non-NSF award; however, WGBH’s Coordinating Producer believes that a keying error caused the
costs to be charged to NSF. Controls at WGBH were designed for a review and approval of
expenditures (payroll and non-payroll) prior to charging the costs to the NSF grants. In addition,
controls were also designed to review monthly expenditure reports for accuracy and reasonableness. It
appears that the controls did not operate as intended and consequently these transactions were not
properly identified and removed during the review process. As a result, the failure to properly identify
costs not related to the NSF projects has caused costs to be over stated and improper payments were
made. (Also see Schedule of Questioned Costs, Schedule B, Notes B-1, B-2, B-4, and B-5)

Recommendation No. 3
We recommend that NSF’s Director of DIAS instruct WGBH to expand controls to include a second
review by the supervisory accountant to better identify and correct errors made to the award. In
addition, WGBH should reinforce current policies and procedures to ensure Principal Investigators are
properly reviewing costs charged to the award to ensure costs are related to and benefit the award.



                                                     15
National Science Foundation
Office of Inspector General
(Continued)


Awardee Comments

WGBH respectfully disputes a portion of this finding. As such, we will respond in turn with respect to
each of the three transactions:

   •   Transaction #1 -- a payroll transaction (pay period ending 3/25/07) in the amount of $8,505,
       NSF portion $6,302

WGBH does not dispute the finding with respect to this transaction, as the expense (while part of the
NOVA project) should not have been charged to this grant.

   •   Transaction #2 -- a payroll transaction (pay period ending 8/31/03) in the amount of $11,340,
       NSF portion $8,403

WGBH respectfully disputes the finding with respect to this transaction. Although this transaction took
place outside of the grant period, the expense was for research and development related to the ESI-
9804615/ESI-0229297 grants and was incurred within ninety days of the start of the grant period. We
believe that this expense should be allowed under § 602.2 of the Grant Policy Manual.

   •   Transaction #3 -- a fee for a musician in the amount of $6,209, NSF portion $4,601

WGBH does not dispute the finding with respect to this transaction, as the expense (while part of the
NOVA project) should not have been charged to this grant.

As such, Finding No. 3 in the draft audit should be reduced from $25,707 to $14,048.

Auditor’s Response

WGBH agreed with the questioning of transactions #1 and #3. With respect to transaction #2, WGBH
did not provide any support to establish that the payroll charge in question was for research and
development related to the NSF award charged. In addition, the revised NSF Grant Policy Manual
provided with the response, which was used as the basis for WGBH’s position, was effective as July 1,
2005 while the transaction in question occurred in August 2003.           Accordingly, the finding,
recommendation and questioned costs remain as previously stated. This report finding should not be
closed until NSF determines that the grantee implemented an acceptable corrective action that
addresses our recommendation.


Finding No. 4 – Service Center Charges Review Not Documented
WGBH did not document its review of service center charges in compliance with OMB Circular A-122,
which limits WGBH’s ability to affirm that service center costs charged to the NSF awards are accurate,
allocable and reasonable. WGBH utilizes internal service centers to provide services such as
telephone, copier, and information technology (IT) to all the other WGBH departments. Service centers
track and bill each of the departments based on their usage for the month. As such, NSF grants are
supposed to be charged their appropriate portion of telephone, copier, and IT charges. According to
WGBH’s officials, the rates used by the Service Centers in their calculation are reviewed annually by
the finance department during the budget process to ensure their accuracy. However, WGBH does not
document the review it performs to determine its service center usage rates. Therefore, there is no
evidence that the rates were accurate and were being reviewed periodically.        A similar finding was

                                                  16
National Science Foundation
Office of Inspector General
(Continued)


noted by WGBH’s external auditors in the prior A-133 audit report (FYE 8/31/04). There was no
indication that the rates discriminated against NSF or federal awards, or that the rates were designed to
recover more costs unallocable to the NSF awards. We nevertheless were unable to ensure the
accuracy or reasonableness of the rates without documentation of WGBH’s review process. During the
audit, we noted that WGBH was developing procedures to document its process to review these rates
and ensure they support the amounts charged to NSF awards.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Subpart A – Basic Considerations,
Section 4 – Allocable Costs, states in part:

   (a) A cost is allocable to a particular cost objective, such as a grant, contract, project, service,
       other activity, in accordance with the relative benefits received. A cost is allocable to a
       Federal award if it is treated consistently with other costs incurred for the same purpose in
       like circumstances and if it:

       (1) Is incurred specifically for the award.

       (2) Benefits both the award and other work and can be distributed in reasonable
           proportion to the benefits received…

   (b) Any cost allocable to a particular award or other cost objective under these principles may not
       be shifted to other Federal awards to overcome funding deficiencies, or to avoid restrictions
       imposed by law or by the terms of the award.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B – Selected Items of
Costs, Section 46 – Specialized Service Facilities, states in part:

   (b) The cost of such services, when material, must be charged directly to the applicable awards
       based on actual usage of the services on the basis of a schedule of rates or established
       methodology that (i) does not discriminate against federally-supported activities of that non-
       profit organization, including usage by the non-profit organization for internal purposes, and (ii)
       is designed to recover only the aggregate costs of the services. The costs of each service shall
       consist normally of both its direct costs and its allocable share of all indirect costs. Rates shall
       be adjusted at least biennially, and shall take into consideration over/under applied costs of the
       previous period.

WGBH’s policy is to review the rates during the annual budget process but there is no specific policy or
procedure requiring the documentation of the review. Failure to properly document the review of rates
charged by service centers limits WGBH’s ability to ensure costs charged to NSF are equitable and
based on actual costs.

Recommendation No. 4
We recommend that NSF’s Directors of DIAS instruct WGBH to develop and implement policies and
procedures to ensure service center rates are periodically reviewed and documented.

Awardee Comments

We do not dispute that WGBH was unable to provide the auditors with full documentation of our review.
One of our four service centers did not adequately document the review that was performed on its rate
setting procedures.
                                                     17
National Science Foundation
Office of Inspector General
(Continued)




Recognizing this problem, WGBH Management has instituted a procedure to ensure that the rates
charged by its service centers are reviewed annually and that each review is adequately documented.
WGBH has created a new managerial position in the Accounting Department that is specifically
responsible for compliance with federal administrative requirements. Annually, this compliance
manager will meet with the service center departments to review and document the methodology
behind the rate cards. This annual review will include a review of the prior year’s recovery results and a
review of the assumptions used in the current year’s rate setting process. In addition, as part of the
annual budget process, the service center departments will be required to submit projected costs and
income associated with their areas of responsibility. We are confident that these changes will ensure
that our service center rates are periodically reviewed and sufficiently documented.

Auditor’s Response

WGBH’s comments are responsive to the recommendation and indicate that it is currently in the
process of developing the procedures as recommended. This report finding should not be closed until
NSF determines that the grantee implemented an acceptable corrective action that addresses our
recommendation.

Finding No. 5 – Inadequate Procedures to Monitor Exchange Rates for Subaward Costs
WGBH did not have adequate procedures to monitor and reconcile the $3.2 million of expenditures it
claimed on the NSF awards in foreign currency and paid for in American dollars, which limits WGBH’s
ability to ensure costs claimed on the NSF awards are accurate. For Award No. ESI-0104700, WGBH
has a sub-contract with 9 Stories, located in Ontario, Canada which produces the animation piece of
the Peep television series. Total expenditures billed by the sub-awardee (9-stories) to WGBH amounts
to $3,234,154, which is 66 percent of total costs claimed on NSF award no. ESI-0104700. Payments to
9 Stories are made in the form of two-week advances based on a predicted cash flow basis. On a
weekly basis, 9 Stories will submit a cost report and trial balance to document the actual costs incurred
in the prior week. On a weekly basis, the Coordinating Producer in charge of monitoring 9 Stories’
work, reviews and tracks the costs in Canadian dollars. The main purpose of the monitoring is to
ensure the actual costs align with the advances already made and to adjust future advances based on
the progress of the project.

However, WGBH’s accounting department does not have policies to perform and document an overall
reconciliation between the total advances made in US dollars to the total costs incurred in Canadian
dollars. Additional work was performed in the second phase of the audit to a) reconcile the costs
between Canadian and US dollars, b) review the exchange rate, and c) review a sample of the costs
charged by 9 Stories for allowability and allocability. Based on our review no costs were questioned;
however, internal controls could be strengthen by implementing written policies and procedures to
periodically perform and document an overall reconciliation of actual costs incurred by 9 Stories
(Canadian dollars) and the costs paid by WGBH (advanced in U.S. dollars).

OMB Circular A-110, Uniform Administrative Requirements for Grants and Other Agreements with
Institution of Higher Education, Hospitals, and Other Non-Profit Organizations, Subpart C, Section 21,
Sub-Section B, states in part:

   (b) Recipients’ financial management systems shall provide for the following:

       (1) Accurate, current and complete disclosure of the financial results of each federally-
           sponsored project or program in accordance with Section 52….
                                                   18
National Science Foundation
Office of Inspector General
(Continued)




       (3) Effective control over and accountability of all funds, property and other assets…

       (7) Accounting records including cost accounting records that are supported by source
           documentation.

WGBH did not have policies or procedures in place to perform such an overall reconciliation as noted
above because the Controller has indicated that the Coordinating Producer monitors the subawards’
activities and cash flow very closely. Management believes that since the Coordinating Producer works
so closely with the subaward, any problems with the costs would be identified by the Producer.
Failure to reconcile and review advances made in U.S. dollars versus costs incurred in Canadian
dollars, limits WGBH’s ability to ensure that subaward costs charged to the grant are accurate, valid,
and for actual expenses. Without an overall reconciliation, WGBH can not be assured that advances
were for the exact amount of costs incurred by 9 Stories.

Recommendation No. 5
We recommend that NSF’s Directors of DIAS instruct WGBH to develop written policies and
procedures to periodically perform and document an overall reconciliation of the actual costs incurred in
foreign currency by subawards versus advances paid by WGBH in U.S. dollars. The reconciliation
should allow for a comparison of the expenditures and advances in U.S. dollars.

Awardee Comments

We respectfully dispute this finding. WGBH has adequate procedures and processes in place to
monitor and reconcile the expenditures to ensure that the costs for the project are accurate and valid
and, therefore, that the costs claimed on the NSF awards are accurate and valid.

In this particular case, the budget from the sub-awardee was prepared in Canadian currency, and the
sub-award advances were paid in Canadian currency. We specifically monitored and reconciled the
sub-awardee’s expenses in the same currency in order to eliminate exchange rate fluctuations as a
variable. WGBH’s books indicated that the advances paid were recognized in U.S. dollars at the
exchange rate existing at the time of each payment. WGBH monitored expenses for the sub-award on
a weekly basis. The sub-awardee submitted weekly cost reports and trial balances, which were
reviewed by WGBH’s Coordinating Producer/Business Director for completeness, accuracy, and
expense validity. Each review also included a review of the cash flow schedule for possible adjustments
to future advances. In addition, WGBH’s Coordinating Producer made several visits to the sub-
awardee’s office to further ensure the accuracy and validity of the information being sent. This weekly
reconciliation created no unresolved discrepancies.

WGBH’s practice for all funded projects is that each project performs an overall reconciliation on a
quarterly basis in U.S. dollars, prepare a quarterly estimate to complete report, and meet with staff from
our Budget Office to discuss the project’s progress. Each quarterly report contains a reconciliation of
WGBH’s overall expenditure in U.S. dollars. In the case of the Canadian sub-awardee, each payment
request form submitted for processing included the Canadian currency amount to be paid, the
conversion rate, and the U.S. Dollar equivalent.

We are confident that our policies and monitoring activities for sub-awardee advances far exceeds the
requirements of OMB Circular A-110.


                                                   19
National Science Foundation
Office of Inspector General
(Continued)


Auditor’s Response

Notwithstanding WGBH’s response, we continue to maintain that internal controls could be strengthen
by implementing written policies and procedures to periodically perform and document an overall
reconciliation of actual costs incurred in Canadian dollars and the costs paid by WGBH in U.S. dollars.
This report finding should not be closed until NSF determines that the grantee implemented an
acceptable corrective action that addresses our recommendation.


We considered these internal control deficiencies in forming our opinion of whether Schedules A-1
through A-4 are presented fairly in all material respects, in conformity with National Science Foundation
policies and procedures, and determined that this report does not affect our report dated August 21,
2006 on the financial schedules.

This report is intended solely for the information and use of WGBH’s management, the National
Science Foundation, WGBH’s Federal cognizant agency, the Office of Management and Budget, and
the Congress of the United States of America and is not intended to be and should not be used by
anyone other than those specified parties.


Mayer Hoffman McCann P.C.
Conrad Government Services Division




Irvine, California
August 21, 2006




                                                   20
 FINANCIAL SCHEDULES AND
SUPPLEMENTAL INFORMATION
National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


                INDEPENDENT AUDITORS’ REPORT ON FINANCIAL SCHEDULES

We have audited the costs claimed by WGBH Educational Foundation (WGBH) to the National Science
Foundation (NSF) on the Federal Cash Transactions Reports (FCTR) for the NSF awards listed below.
In addition, we have also audited the amount of cost sharing claimed on Award Nos. ESI-0000610 and
ESI-0104700. The FCTRs, as presented in the Schedules of Award Costs (Schedules A-1 through A-
4), are the responsibility of WGBH’s management. Our responsibility is to express an opinion on the
Schedules of Award Costs (Schedules A-1 through A-4) based on our audit.

              Award Number                    Award Period                     Audit Period
     ESI – 9804615/ESI – 0229297           05/01/98 – 05/31/06              05/01/98 – 09/30/05
     ESI – 0000610                         09/01/00 – 01/31/05              09/01/00 – 01/31/05
     ESI – 0104700                         09/01/01 – 08/31/07              09/01/01 – 12/31/05
     DUE–0202223                           09/01/02 – 08/31/06              09/01/02 – 12/31/05
Except as discussed in the following paragraph, we conducted our audit in accordance with auditing
standards generally accepted in the United States of America, the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States (2003 Revision), and the National Science Foundation Audit Guide (September 1996) as
applicable. Those standards and the National Science Foundation Audit Guide, require that we plan
and perform the audit to obtain reasonable assurance that the amounts claimed to NSF as presented in
the Schedules of Award Costs (Schedules A-1 through A-4) are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the Schedules
of Award Costs (Schedules A-1 through A-4). An audit also includes assessing the accounting
principles used and the significant estimates made by WGBH, as well as evaluating the overall financial
schedule presentation. We believe our audit provides a reasonable basis for our opinion.

The Schedule of Questioned Costs (Schedule B) explains the $808,383 (8.56%) of total claimed NSF-
funded costs that we questioned as to their allowability under the award agreements. These
questioned costs include unallowable expired award amounts and unsupported costs claimed for
salaries, wages, fringe benefits, travel, other direct costs, and the associated unallowable indirect
expenses. Questioned costs are (1) costs for which there is documentation that the recorded costs
were expended in violation of laws, regulations or specific conditions of the award, (2) costs that require
additional support by the awardee, or (3) costs that require interpretation of allowability by the National
Science Foundation – Division of Institution and Award Support (DIAS). The National Science

                                                    21
National Science Foundation
Office of Inspector General
(Continued)


Foundation will make the final determination regarding whether such costs are allowable. The ultimate
outcome of this determination cannot presently be determined. Accordingly, no adjustment has been
made to costs claimed for any potential disallowance by NSF.

In our opinion, except for the $808,383 of questioned NSF funded costs, the Schedules of Award Costs
(Schedules A-1 through A-4) referred to above present fairly, in all material respects, the costs claimed
on the Federal Cash Transactions Reports, for the period May 1, 1998 to December 31, 2005 in
conformity with the National Science Foundation Audit Guide, NSF Grant Policy Manual, terms and
conditions of the NSF award and on the basis of accounting described in the Notes to the Financial
Schedules, which is a comprehensive basis of accounting other than generally accepted accounting
principles. The Schedules are not intended to be a complete presentation of financial position in
conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, and provisions of the National Science Foundation
Audit Guide, we have also issued our report dated August 21, 2006 on our tests of WGBH’s compliance
with certain provisions of laws, regulations, and NSF award terms and conditions and our consideration
of WGBH’s internal control over financial reporting. The purpose of that report is to describe the scope
of our testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

This report is intended solely for the information and use of WGBH’s management, the National
Science Foundation, WGBH’s federal cognizant agency, Office of Management and Budget, and the
Congress of the United States of America and is not intended to be and should not be used by anyone
other than these specified parties.


Mayer Hoffman McCann P.C.
Conrad Government Services Division




Irvine, California
August 21, 2006




                                                    22
                                                                                                         SCHEDULE A-1
                                        WGBH EDUCATIONAL FOUNDATION
                        National Science Foundation Award Numbers ESI-9804615/ESI-0229297
                                              Schedule of Award Costs
                                          May 1, 1998 - September 30, 2005
                                                       Interim

                              ESI-9804615 ESI-0229297
                               Approved    Approved           Total            Claimed     Questioned       Schedule
        Cost Category           Budget      Budget          Budget (B)         Costs (A)     Costs          Reference
Direct costs:
   Salaries and wages         xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx        14,705         B-1
   Fringe benefits            xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx         2,990         B-2
   Equipment                  xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           -
   Travel                     xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           223         B-3
   Participant support        xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           -
   Other direct costs:        xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx
      Material and supplies   xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           -
      Publication             xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           -
      Consulting              xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           -
      Subaward                xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx           -
      Other direct costs      xxxxxxxx        xxxxxxxx      xxxxxxxx       x   xxxxxxxx       785,262         B-4

        Total direct costs        1,521,621     1,762,320    3,283,941         2,073,288      803,180

Indirect costs                     231,829        269,636        501,465         317,369        4,168         B-5

        Total                 $ 1,753,450       2,031,956    3,785,406         2,390,657      807,348

Cost sharing                  $          -        203,196        203,196         123,104          -



  (A) - The total claimed costs agrees with the total expenditures reported by WGBH Educational Foundation on the
  Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended September 30,
  2005. Claimed costs reported above are taken from the awardee's books of accounts.



  (B) - In April 2003, NSF authorized WGBH to use remaining funds from ESI-9804615 for expenditures related to
  NSF award ESI-0229297. As such, WGBH maintained all costs related to both projects in one project code. As of
  09/30/05, a total of $1,753,450 was claimed on the ESI-9804615 award and $637,207 was claimed on the ESI-
  0229297 award.




                  The accompanying Notes to Financial Schedules are in integral part of this schedule.




                                                            23
                                                                                            SCHEDULE A-2
                                      WGBH EDUCATIONAL FOUNDATION
                             National Science Foundation Award Number ESI-0000610
                                             Schedule of Award Costs
                                       September 1, 2000 - January 31, 2005
                                                      Final



                                    Approved             Claimed          Questioned            Schedule
        Cost Category                Budget              Costs (A)          Costs               Reference
Direct costs:
   Salaries and wages           xxxxxxxx         xxx   xxxxxxxx                    -
   Fringe benefits              xxxxxxxx         xxx   xxxxxxxx                    -
   Equipment                    xxxxxxxx         xxx   xxxxxxxx                    -
   Travel                       xxxxxxxx         xxx   xxxxxxxx                    898             B-3
   Participant support          xxxxxxxx         xxx   xxxxxxxx                    -
   Other direct costs:          xxxxxxxx         xxx   xxxxxxxx
      Material and supplies     xxxxxxxx         xxx   xxxxxxxx                     -
      Publication               xxxxxxxx         xxx   xxxxxxxx                     -
      Consulting                xxxxxxxx         xxx   xxxxxxxx                     -
      Subaward                  xxxxxxxx         xxx   xxxxxxxx                     -
      Other direct costs        xxxxxxxx         xxx   xxxxxxxx                     -

        Total direct costs             726,942                778,067               898

Indirect costs                         111,221                 60,096              137             B-5

        Total                   $      838,163                838,163            1,035

Cost sharing                    $    1,572,025            1,572,025                 -



  (A) - The total claimed costs agrees with the total expenditures reported by WGBH Educational Foundation
  on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the quarter ended
  March 31, 2005. Claimed costs reported above are taken from the awardee's books of accounts.




                  The accompanying Notes to Financial Schedules are in integral part of this schedule.




                                                         24
                                                                                        SCHEDULE A-3
                                 WGBH EDUCATIONAL FOUNDATION
                        National Science Foundation Award Number ESI-0104700
                                        Schedule of Award Costs
                                September 1, 2001 - December 31, 2005
                                                Interim



                                Approved            Claimed           Questioned            Schedule
        Cost Category            Budget             Costs (A)           Costs               Reference
Direct costs:
   Salaries and wages         xxxxxxxx       xxx   xxxxxxxx                    -
   Fringe benefits            xxxxxxxx       xxx   xxxxxxxx                    -
   Equipment                  xxxxxxxx       xxx   xxxxxxxx                    -
   Travel                     xxxxxxxx       xxx   xxxxxxxx                    -
   Participant support        xxxxxxxx       xxx   xxxxxxxx                    -
   Other direct costs:        xxxxxxxx       xxx   xxxxxxxx
      Material and supplies   xxxxxxxx       xxx   xxxxxxxx                    -
      Publication             xxxxxxxx       xxx   xxxxxxxx                    -
      Consulting              xxxxxxxx       xxx   xxxxxxxx                    -
      Subaward                xxxxxxxx       xxx   xxxxxxxx                    -
      Other direct costs      xxxxxxxx       xxx   xxxxxxxx                    -

        Total direct costs       5,666,457           4,677,612                 -

Indirect costs                     244,593            208,737                  -

        Total                 $ 5,911,050            4,886,349                 -

Cost sharing                  $ 7,509,583            5,020,296                 -



  (A) - The total claimed costs agrees with the total expenditures reported by WGBH Educational
  Foundation on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the
  quarter ended December 31, 2005. Claimed costs reported above are taken from the awardee's
  books of accounts.




           The accompanying Notes to Financial Schedules are in integral part of this schedule.




                                                    25
                                                                                        SCHEDULE A-4
                                 WGBH EDUCATIONAL FOUNDATION
                       National Science Foundation Award Number DUE-0202223
                                       Schedule of Award Costs
                                September 1, 2002 - December 31, 2005
                                                Interim



                                  Approved           Claimed         Questioned            Schedule
        Cost Category              Budget            Costs (A)         Costs               Reference
Direct costs:
   Salaries and wages         xxxxxxxx        xxx   xxxxxxxx                   -
   Fringe benefits            xxxxxxxx        xxx   xxxxxxxx                   -
   Equipment                  xxxxxxxx        xxx   xxxxxxxx                   -
   Travel                     xxxxxxxx        xxx   xxxxxxxx                   -
   Participant support        xxxxxxxx        xxx   xxxxxxxx                   -
   Other direct costs:        xxxxxxxx        xxx   xxxxxxxx
      Material and supplies   xxxxxxxx        xxx   xxxxxxxx                   -
      Publication             xxxxxxxx        xxx   xxxxxxxx                   -
      Consulting              xxxxxxxx        xxx   xxxxxxxx                   -
      Subaward                xxxxxxxx        xxx   xxxxxxxx                   -
      Other direct costs      xxxxxxxx        xxx   xxxxxxxx                   -

        Total direct costs        1,154,330           1,155,878                -

Indirect costs                      176,613            175,065                 -

        Total                 $ 1,330,943             1,330,943                -

Cost sharing                  $         -                   -                  -



  (A) - The total claimed costs agrees with the total expenditures reported by WGBH Educational
  Foundation on the Federal Cash Transaction Report - Federal Share of Net Disbursements as of the
  quarter ended December 31, 2005. Claimed costs reported above are taken from the awardee's
  books of accounts.




           The accompanying Notes to Financial Schedules are in integral part of this schedule.




                                                      26
                                                                                 SCHEDULE B


                    WGBH EDUCATIONAL FOUNDATION (WGBH)
                      National Science Foundation Award Numbers
           ESI–9804615/ESI-0229297, ESI-0000610, ESI-0104700, DUE-0202223
                             Schedule of Questioned Costs
                        From May 1, 1998 to December 31, 2005


Note B-1   Salaries & Wages
           During the review of Salary & Wages for the ESI–9804615/ESI–0229297 award, we
           noted two transactions that were identified by WGBH as not relating or benefiting the
           NSF award. These transactions were specifically identified by WGBH as not benefiting
           the NSF project, but mistakenly charged to the grants. WGBH made journal entries
           during field work to remove the costs, but those costs were already claimed. (See
           Finding and Recommendation No. 3 in the Report on Compliance and Other Matters and
           Internal Controls over Financial Reporting.)

              Date     Activity             Account              Description      Amount
            03/25/05 LEAD1COR         806005 7010101-000      Expense accrual    $ 8,505
            08/31/03 LEADEDG1         806005 7010101-000      Expense accrual      11,340
                                                                           Total $ 19,845
                                                      Percentage Charged to NSF    74.10%
                                                              Questioned Costs $ 14,705




Note B-2   Fringe Benefits
           As a result of questioned salary & wage expense (Note B-1), we have also questioned
           the associated fringe benefits for those employees as follows:

                  Total questioned salary costs (Note B-1)         $ 14,705
                  NSF approved benefit rate                           20.33%
                         Questioned Fringe Benefit Costs           $ 2,990




                                             27
                                                                                 SCHEDULE B


                    WGBH EDUCATIONAL FOUNDATION (WGBH)
                      National Science Foundation Award Numbers
           ESI–9804615/ESI-0229297, ESI-0000610, ESI-0104700, DUE-0202223
                             Schedule of Questioned Costs
                        From May 1, 1998 to December 31, 2005

                                        (Continued)


Note B-3   Travel Costs
           During the review of travel costs, two transactions were not properly supported with
           adequate documentation to determine if the costs were allowable and related to the
           grant award. The following summarizes the transactions noted during the review. (See
           Finding and Recommendation No. 2 in the Report on Compliance and Other Matters and
           Internal Controls over Financial Reporting.)

           ESI-9804615/ESI-0229297:

             Date         Activity    Account Category           Account       Amount
                                      H3400
            06/30/05 LEAD1COR         Research/Scouting     806005 730216     $    301
                                                    Percentage Charged to NSF   74.10%
                                                            Questioned Costs $     223

              •   Only documentation supporting the transaction was a copy of the journal entry
                  recording the transaction.


           ESI-0000610:

              Date     Activity       Account Category           Account       Amount
            06/14/02 NOVRPHYS         HJ100 Shoot T&L-Air   806000 730100     $ 2,721
                                                    Percentage Charged to NSF   33.00%
                                                            Questioned Costs $     898

              •   An employee expense report was provided as support for the transactions;
                  however, actual receipts supporting the expense were not provided.




                                            28
                                                                                   SCHEDULE B


                    WGBH EDUCATIONAL FOUNDATION (WGBH)
                      National Science Foundation Award Numbers
           ESI–9804615/ESI-0229297, ESI-0000610, ESI-0104700, DUE-0202223
                             Schedule of Questioned Costs
                        From May 1, 1998 to December 31, 2005

                                          (Continued)


Note B-4   Other Direct Costs - ESI-9804615/ESI-0229297

                       Amount                        Description
                     $   4,722         No supporting documentation
                         4,601         Not related to the grant
                       775,939         Expired appropriation
                     $ 785,262         Total Questioned Other Direct Costs


           No Supporting Documentation:

              Date     Activity         Account Category          Account       Amount
            11/30/04 LEAD1COR          C8000 Insurance       806005 720823     $ 6,373
                                                     Percentage Charged to NSF   74.10%
                                                             Questioned Costs $ 4,722

              •   Amount was allocated insurance premiums; however there was no source
                  documentation provided to support the total insurance premium or the allocation.
                  Without adequate support, we were unable to determine if the costs were
                  allowable and related to the grant award.

           Not Related to the Grant:

              Date     Activity         Account Category          Account       Amount
            05/20/05 LEAD1COR          EG151 Musicians       806005 701016     $ 6,209
                                                     Percentage Charged to NSF   74.10%
                                                             Questioned Costs $ 4,601

              •   These transactions were specifically identified by WGBH as not benefiting the
                  NSF project, but mistakenly charged to the grants. WGBH made journal entries
                  during field work to remove the costs, but those costs were already claimed.

           Expired Appropriations
           On the September 30, 2004 FCTR, WGBH claimed quarterly costs of $1,033,786, of
           which were costs incurred for the month of September 2004 and accrued costs for
           expenditures to be incurred in the months following September 2004. Details of the
           $1,033,786 indicated the costs were employment and rental contracts necessary to
           complete the project. However, the amount claimed was for the full amount of each
           contract and to accrue expenditures for the extended time period was not WGBH’s
           normal accounting procedure. In addition, $906,324 of the appropriation funding the

                                              29
                                                                                  SCHEDULE B


                    WGBH EDUCATIONAL FOUNDATION (WGBH)
                      National Science Foundation Award Numbers
           ESI–9804615/ESI-0229297, ESI-0000610, ESI-0104700, DUE-0202223
                             Schedule of Questioned Costs
                        From May 1, 1998 to December 31, 2005

                                         (Continued)


Note B-4   Other Direct Costs - ESI-9804615/ESI-0229297 (Continued)

           award was due to expire on September 30, 2004. As a result, $775,939 of costs has
           been questioned as follows:


               Amount                           Description
            $ 906,324       Appropriation funding expiring 09/30/04
              (45,220)      Costs claimed and incurred on or before 06/30/04
                            FCTR
              xxxxxxx       Actual salary and rental costs for 09/30/04 (see
                            calculation below)
              xxxxxxx       Actual fringe benefits for 09/30/04 salary costs
                            xxxxxxx
              xxxxxxx       Allowable associated Indirect costs for 09/30/04
                            xxxxxxx
            $ 775,939       Questioned Costs


           September 2004 Calculation:

                 Employee/Cost Type          Accrued Amount (a)         Monthly Amount (a)
            xxxxxxxxxxxx                       xxxxxxxxxxxx               xxxxxxxxxxxx
            xxxxxxxxxxxx                       xxxxxxxxxxxx               xxxxxxxxxxxx
            xxxxxxxxxxxx                       xxxxxxxxxxxx               xxxxxxxxxxxx
            xxxxxxxxxxxx                       xxxxxxxxxxxx               xxxxxxxxxxxx
            xxxxxxxxxxxxd                      xxxxxxxxxxxx               xxxxxxxxxxxx
            xxxxxxxxxxxx                       xxxxxxxxxxxx               xxxxxxxxxxxx
            Vacation accrual                   xxxxxxxxxxxx               xxxxxxxxxxxx
            Rental                             xxxxxxxxxxxx               xxxxxxxxxxxx
            Benefits & Indirect costs          xxxxxxxxxxxx               xxxxxxxxxxxx
                                               xxxxxxxxxxxx               xxxxxxxxxxxx

              (a) – Amounts taken from signed and executed contracts.




                                             30
                                                                                      SCHEDULE B


                    WGBH EDUCATIONAL FOUNDATION (WGBH)
                      National Science Foundation Award Numbers
           ESI–9804615/ESI-0229297, ESI-0000610, ESI-0104700, DUE-0202223
                             Schedule of Questioned Costs
                        From May 1, 1998 to December 31, 2005

                                          (Continued)


Note B-5   Indirect Costs
           As a result of costs questioned in Notes B-1, B-2, B-3 and B-4, we have also questioned
           indirect cost claimed by WGBH as follows:

                                                                       Questioned
                           ESI-9804615/ESI-0229297                       Costs
                Note B-1 – Questioned Salary & Wage                   $ 14,705
                Note B-2 – Questioned Fringe Benefits                    2,990
                Note B-3 – Questioned Travel Costs                         223
                Note B-4 – Questioned Other Direct Costs (a)             9,323
                                   Total Questioned Direct Costs      $ 27,241
                WGBH’s Indirect Cost rate                             xxxxxxxxxxxx
                                       Questioned Indirect Costs      $ 4,168

                (a) – Only a portion of questioned costs in Note B-4 is subjected to this calculation.
                The remaining questioned costs, $775,939, identified in Note B-4 already took into
                consideration the indirect cost factor.

                                                                 Questioned
                                  ESI-0000610                       Costs
                Note B-3 – Questioned Travel Costs               $    898
                WGBH’s Indirect Cost rate                        xxxxxxxxxx
                                       Questioned Indirect Costs $    137




                                               31
                                                                                  SCHEDULE C
                         WGBH EDUCATIONAL FOUNDATION
                  Summary Schedules of Awards Audited and Audit Results
                        From May 1, 1998 to December 31, 2005

Summary of Awards Audited

       Award Number                Award Period            Audit Period
ESI – 9804615/ESI – 0229297     05/01/98 – 05/31/06    05/01/98 – 09/30/05
ESI – 0000610                   09/01/00 – 01/31/05    09/01/00 – 01/31/05
ESI – 0104700                   09/01/01 – 08/31/07    09/01/01 – 12/31/05
DUE–0202223                     09/01/02 – 08/31/06    09/01/02 – 12/31/05

 Award Number          Type of Award                     Award Description
ESI – 9804615 &     Grant                   The original purpose of the award was to
ESI - 0229297                               produce a 40 minute large format film about
                                            the science of volcanology. In 2003, the
                                            project was changed to produce quarterly
                                            television magazine format programs
                                            related to scientific research.
ESI – 0000610       Grant                   Production of a three-hour television series
                                            about the quest for a unified set of laws
                                            governing the universe.
ESI – 0104700       Grant                   Production of a daily half-hour television
                                            series about science geared towards three
                                            to five year old children.
DUE – 0202223       Grant                   This project is showcasing a diverse range
                                            of ground-breaking Advanced Technology
                                            Education (ATE) programs currently
                                            operating in community colleges across the
                                            country, through production and
                                            dissemination of a series of media-based
                                            products.


Summary of Questioned and Unsupported Costs by Award

                                        Claimed       Questioned      Unsupported
 Award Number       Award Budget         Costs          Costs            Costs
ESI – 9804615        $1,753,450        1,753,450        807,348         5,702
ESI – 0229297         2,031,956          637,207           -              -
ESI – 0000610           838,163          838,163          1,035         1,035
ESI – 0104700         5,911,050        4,886,349           -              -
DUE–0202223           1,330,943        1,330,943           -              -
   Totals           $11,865,562        9,446,112        808,383         6,737




                                           32
                                                                            SCHEDULE C
                        WGBH EDUCATIONAL FOUNDATION
                 Summary Schedules of Awards Audited and Audit Results
                       From May 1, 1998 to December 31, 2005

                                        (Continued)

Summary of Questioned Cost by Explanation

                             Questioned
         Category              Costs         Internal Controls    Non-Compliance
Salaries and Wages            $ 14,705              Yes                Yes
Fringe Benefits                   2,990             Yes                Yes
Equipment                             -             No                  No
Travel                            1,121             Yes                Yes
Participant Support                   -             No                  No
Material & Supplies                   -             No                  No
Publication                           -             No                  No
Consulting                            -             No                  No
Subcontractors                        -             No                  No
Other Direct Costs             785,262              Yes                Yes
Indirect Costs                    4,305             Yes                Yes
Cost Sharing                          -             No                  No


Summary of Non-Compliance and Internal Control Findings

                                             Non-Compliance or           Material or
               Findings                       Internal Control           Reportable
Future Costs Charged to Expired              Non-Compliance and           Material
Appropriation Funding                          Internal Control
Transactions Lacking Supporting              Non-Compliance and          Reportable
Documentation                                  Internal Control
Transactions Not Related to the Award        Non-Compliance and          Reportable
                                               Internal Control
Service Center Charges Review Not            Non-Compliance and          Reportable
Documented                                     Internal Control
Inadequate Procedures to Monitor             Non-Compliance and          Reportable
Exchange Rates for Subaward Costs              Internal Control




                                            33
                           WGBH EDUCATIONAL FOUNDATION (WGBH)
                                  Notes to Financial Schedules
                             From May 1, 1998 to December 31, 2005


Note 1:   Summary of Significant Accounting Policies

          Accounting Basis
          The accompanying financial schedules have been prepared in conformity with National
          Science Foundation (NSF) instructions, which are based on a comprehensive basis of
          accounting other than generally accepted accounting principles. Schedules A-1 through A-4
          have been prepared by WGBH from the Federal Cash Transactions Reports submitted to
          NSF and WGBH’s accounting records. The basis of accounting utilized in preparation of
          these reports differs from generally accepted accounting principles. The following information
          summarizes these differences:

           A. Equity
                Under the terms of the award, all funds not expended according to the award
                agreement and budget at the end of the award period are to be returned to NSF.
                Therefore, the awardee does not maintain any equity in the award and any excess cash
                received from NSF over final expenditures is due back to NSF.

           B. Equipment
                Equipment is charged to expense in the period during which it is purchased instead of
                being recognized as an asset and depreciated over its useful life. As a result, the
                expenses reflected in the Schedules of Award Costs include the cost of equipment
                purchased during the period rather than a provision for depreciation.
                Except for awards with nonstandard terms and conditions, title to equipment under NSF
                awards vests in the recipient, for use in the project or program for which it was
                acquired, as long as it is needed. The recipient may not encumber the property without
                approval of the federal awarding agency, but may use the equipment for its other
                federally sponsored activities, when it is no longer needed for the original project.

           C. Inventory
                Minor materials and supplies are charged to expense during the period of purchase. As
                a result, no inventory is recognized for these items in the financial schedules.

           d.   Income Taxes

                WGBH is a non-profit organization exempt from federal income taxes under Section
                501(c) (3) of the United States Internal Revenue Code.

          The departure from generally accepted accounting principles allows NSF to properly monitor
          and track actual expenditures incurred by the Grantee. The departure does not constitute a
          material weakness in internal controls.




                                                  34
                          WGBH EDUCATIONAL FOUNDATION (WGBH)
                                 Notes to Financial Schedules
                            From May 1, 1998 to December 31, 2005

                                              (Continued)


Note 2:   NSF Cost Sharing and Matching
          The following represents the cost share requirement and actual cost share as of December
          31, 2005:

                                Cost Share       Actual Cost Share
           Award Number           Required           Claimed            Over/(Under)
           ESI – 0000610        $ 1,572,025        $ 1,572,025          $      -
           ESI – 0229297            203,196           123,104              ( 80,092)
           ESI – 0104700          7,509,583          5,020,296           (2,489,287)

          Grant Nos. ESI – 0229297 and ESI – 0104700 are still in progress and WGBH has until May
          31, 2006 and August 31, 2007, respectively, to meet the remaining obligated cost share
          requirement.

Note 3:   Indirect Cost Rates

                               Indirect
           Award Number       Cost Rate                              Base
           ESI – 9804615/    xxxxxxxxxxxx Modified Total Direct Costs (Total direct salaries, fringe
            ESI-0229297                   benefits, materials, supplies, services, travel, and
           ESI – 0000610                  subawards (up to the firstxxxxxxxxx)
           ESI – 0104700
           DUE – 0202223




                                                  35
APPENDIX - AUDITEE’S COMMENTS TO REPORT
                                                                              WGBM
                                                                               One Guest Street
                                                                               Boston
                                                                               Massachusetts
                                                                               02135




October 11,2007


VIA OVERNIGHT MAlL



2301 Dupont Drive, Suite 200
Irvine, CaIifornia 92612

      Comments by WGBH Educational Foundation
      in Response to August 20.2007 Draft Audit Report

Dear Mr. Rolwes:

        WGBH EducationaI Foundation ("WGBH) respectfully submits comments in
response to the draft audit report covering National Science Foundation ("NSF7)grant
awards Nos. ESI-98046 1SIESI-0229297, ESI-0000610, ESI-0 104700, and DUE-
0202223 that you sent to us on August 20, 2007 (hereinafter referred to as the "draft
audit report"). We appreciate the opportunity to provide our comments on the draft
audit report, and request your careful consideration.

       You have asked us to state specifically whether we concur with the following:
(1) the factual accuracy of the data presented; (2) the conditions included in the Report
on Compliance and Other Matters on Internal Control over Financial Reporting Based
on un Audit Performed in Accordance with Government Auditing Standards (hereinafter
referred to as the "Report on Compliance and Iriternal Controls"); and ( 3 ) the
questioned costs identified in Schedule B of the draft audit report. As explained below,
although we believe the financial data on which you have based your draft report are
generally accurate, there are important respects in which we believe that the Report on
Compliance and Internal Controls fails to present a complete view of the relevant facts
and reaches conclusions about WGBH's incurrence of costs and about our compliance
systems that are unwarranted by the facts.

        As requested, we respond in turn to each of the findings and recommendations
set forth in the Report on Compliance and Internal Controls. We also express our
opinion concerning the factual accuracy of the data presented and the questioned costs
identified in Schedule B in each of our responses below.
October 1 1,2007
Page 2

     A. Finding and Recommendation No. 1           -- Future Costs Charged to Expired
Appropriation Funding

           1. Summary of the Draft Audit Report

         Finding No. 1 of the draft audit report alleges that WGBH claimed costs that it
 had not yet incurred to prevent losing $775,939 of grant funding under an appropriation
 that partially funded grant No. ESI-9804615 and that was due to expire and be
 deobligated. More specifically, the draft audit report states that WGBH claimed, on its
 September 30,2004 Federal Cash Transaction Report ("FCTR), $775,939 in salary,
 benefits, rent, and indirect costs to be incurred in fiscal year 2005 to produce necessary
 television segments for NSF award No. ESI-9804615/ESI-0229297.

        According to the draft audit report, our decision to claim these funds was
 "[biased on [our] interpretation of NSF's instruction to claim expenses and
 encumbrances prior to the expiration of the grant."

         As a result of this finding, the draft audit report recommends that we return
 $775,939 of costs claimed on an expired appropriation and that we take the following
 preventative measures: (a) strictly enforce and monitor general adherence to Generally
 Accepted Accounting Principles and our policy to charge only incurred costs and not
 anticipated future expenses to our NSF awards and (b) establish and implement proper
 policies and procedures that will prevent future claims for costs not yet incurred and
 claims charged against expired funds.

            2. WGBH's Response

        We respectfully dispute this finding and the corresponding ~.ecomn~endations.
 As explaiiled below, we were given specific instructions by NSF about how to treat the
 $775,939 of grant money that was set to expire, and we followed those instructions in
 good faith. The draft audit report appears to suggest that our actions were based on an
 erroneous "interpretation of NSF instructions," but, as discussed below, we followed the
 only reasonable interpretation of those instructions.

         In order to fully appreciate the circumstances at issue, it is necessary to
 understand the unusual history of the grant in question. On May 18, 1998, NSF awarded
 grant No. ESI-9804615 to WGBH for the production of "Volcano: Lost City of
 Pompeii" (hereafter the "Pompeii Project"). On April 3,2003, after we were unable to
 raise sufficient external funds to support the Pompeii Project, NSF decided to terminate
 support for the Pompeii Project and transfer the remaining funds under Grant No. ESI-
 9804615 to another WG-BHproject, entitled "NOVA: Leading Edge," which then was
 supported by Grant No. ESI-0229297. Under the NOVA project and the ESI-0229297
 grant, WGBH was to produce a quarterly television program devoted to the public
 understanding of current scientific research, a new and important initiative of NSF.
C
-PA,                          CFE
  October 11,2007
  Page 3

        From April 3,2003 to June 4,2004, WGBH operated under the assumption that
 the remaining funds from the ESI-9804615 grant had been transferred into the newer
                                                                                                /
                                                                                                     /
 ESI-02292W grant, leaving WGBH with the task of managing a single grant. See                   '\

 Attachment A at p. 1,g 4 ("In addition.. ."). As such, we were not cognizant of the
 impending expiration of the ESI-9804615 grant funds on September 30,2004, until we
 received an email from Dorothy Battle, NSF Accountant, on June 4,2004. That email
 informed us for the first time that the ESI-9804615 grant funds were considered separate
 from the ESI-0229297 grant, and that a portion of those funds were set to expire in 118
 days. In her June 4,2004 email, Ms. Battle offered the following warning:

               Grant monies that are funded by Fiscal Year 1998 appropriations will
               lapse on September 30,2004. We will financially close (deobligate all
               unobligated balances) all grants with 1998 appropriations in late
               September.

               The following grant to your organization is funded by FY 1998
               appropriations:

               [Grant No. ESI-19804615                $906,324.45

               Please alert the appropriate principle [sic] investigator's department of this
               situation.

  See Attachment B. Significantly, however, the email from Ms. Battle further explained
  that not all costs reported on the FCTR and charged to the grant had to be actually
  incurred before the September 30,2004 date: "It is acceptable to report encumbrances as
  cost on the FCTR when a grant is due to be financially closed." Id.

          Once we received Ms. Battle's June 4,2004 email, we immediately became
  concerned that we would not be able to spend the $906,324.45 in grant funds in less than
  four months time in a manner that would help to advance the project. At the time, we
  had just begun to ramp up production of Lhe first season of the NOVA: Leading Edge
  series. We were in the process of negotiating various employment contracts to assemble
  our production staff and a lease agreement for our production offices. If $905,324.45 of
  the grant money were to be deobligated and taken from the project budget, WGBH
  would have been forced to shut down the project entirely and pay, with WGBH's own
  funds, for obligations that had already been made.

          With these serious concerns in mind, we solicited guidance froin the NSF
  program and finance officials on how WGBH should proceed. We knew that if this
  grant funding were to be decbligated, we wou!d nct be ab!e to complete our work under
  the grant.

        -                               4 in our Budget Department, reached out to
  Ms. Battle to clarify her June 4,2004 email and get advice from NSF on how to deal
  with this impending problem. During several conversations with Mr. Bradbury, Ms.
m
-                      CPA, CFE
October 1 1,2007
Page 4




                                                                 -
 Battle repeated the statement in her June 4,2004 email that WGBH could report
 "encumbrances" as costs on the FCTR when a grant is due to be closed. On June 14,
 2004, Ms. Battle advised -hat,                 "in order that [WGBH ] not forfeit the
 award," WGBH should "first inform Val [(NSF grant official Ms. Valentine Kass)J
 where we are and when we think we'll expend the funds that are going to expire in
 September." See Attachment sC "                     contemporaneous summary of a June
 14,2004 conversation between dn-                     Ms. Battle).                further
 summarized Ms. Battle's advice: "Then, for the September 30th FCTR, I will report that
 we have spent the $900k; however, I will not draw down the cash. (They are two
 separate steps.)" Id.m               further stated that "Dorothy did let me know that we
 should try to be as accurate as possible when reporting our 'expenditures' on the
 September 15 FCTR. Id. If we under-request, we will not be able to request the
 remaining funds a later time. If we over request, she said that isn't too much of a
 problem." Id. r e c o g n i z e d that the procedure being recommended by Ms.
 Battle differed substantially from normal WGBH cost-reporting procedures for the
 FCTR forms, and that if WGBH's outside auditor examined the FCTR, WGBH might

ehav "a bit of explaining to do." Id.; see also, e.g., Attachment D (Affidavit of Mr.
            regarding his June 14,2004 conversation with Ms. Battle); Attachment E at
 pp. 2-3 (informing Ms. Kass at NSF that WG
 the conversation between Ms. Battle and
                                                     intended to proceed as "suggested" in
                                                             "we will declare that $906,324
 has been obligated (we are underway with the project, and the costs are committed, just
 not expended yet).").

         At the time, Ms. Battle and the other NSF officials understood that WGBH was
 ramping up production and they were aware from WGBH's detailed budgets for the
 pro-ject that a substantial amount of the expenses that WGBH was set to incur in fiscal
 ye; 2005 would be for                             the NSF officials understood that as a
 result of the advice                                         WGBH would report some
 $906,324 in costs                                       of the appropriation on September
 30,2004, and that the vast majority of those costs represented salaries and rent that
                      paid during-fiscal year 2005. See also Attachment D 5151 5-6 (Affidavit
 of

         Despite Ms. Battle's specific assurances to t    h     a      t we could report
 WGBH committed future expenses as "encumbrances on the FCTR prior to the
 expiration of the relevant appropriation, we sought to obtain written confirmation of this
 understanding. We recognized that this was st departure from our customary accounting
 practices and wanted to make sure that the NSF guidance, and this exception to our
 customary practice, was fully documented in the grant file in the event of later
 confusion.


                                                             ,explained our understanding
October 1 1,2007
Page 5

              Regarding the Po~npeiicash:

              We are planning to do the following, which was suggested in a
              conversation with a        n        d Dorothy Battle.

              The issue was $906,324 from the old Pompeii grant (ESI-9804615) that is
              close to expi ration.

              For the June 30 FTCR, we will declare that $906,324 has been obligated
              (we are underway with the project, and the costs are committed, just not
              expended yet). We will not draw down the cash until later (closer to when
              it's actually spent), so that we avoid the problem of accumulating interest.

                                will do this as soon as the June 30 FTCR is open (which
               may be today, but he's out today). He will also submit the no-cost
               extension per your email today.

 See Attachment E at pp. 2-3. This email t o Ms. Kass was sent at the suggestion of Ms.
 Battle. See Attachment D gy 6-7 (Affidavit of                     The next day, Ms. Kass
 sent a response to Ms. Curran in which NSF agaln counse e WGBH to report the
 obligated-funds as costs on its FCTR prior to September 30,2004. Ms. K ~ S S 'July 9,
 2004 email reiterated: [TJhe FY98 funds . . . must be spent for expenses incurred
 PRIOR to SeptE.] 30, [20]04. See Attachment E a t p. 1 (emphasis added). Also,
 attached to that July 9,2004 email was an email from Ms. Battle in which she explained
 that "[tlhe expenditures for FY98 funds have to be incurred and'reported on the ftcr [sic]
 report before Sept[.] 30,2004. . . . There is not a time limit on [WGBH]drawing the
 cash." Id. (emphasis added).

         At the time, we believed that NSF had recognized how we arrived at this position
 and had found an exception in this case that would allow the project to survive and move
 forward. Our precise understanding of the NSF advice is evidenced in an internal
 WGBH email that I sent on August 12,2004o-t                      and others at WGBH. In
 that email, I set forth our understanding of the instruction received from NSF and our
 resulting plan of action:

               Based on the information that we have received, in this case and this case
               only, we are allowed to report encumbrances as cost [sic] on the FCTR
               due to the de-Oobligation rsici of funds (Dorothy Sattle's emaii of June 4,
               2004).

               To do this we would need signed agreemellts, employment contracts,
               leases[,] etc. You would need to accrue for these encumbrances as you
               would any accrual. This, of course, needs to be done in a timely manner
               so that we meet the early September deadline.
October 11,2007
Page 6

              Please keep this email and the related documents we looked at as part of
              the file for audit purposes.

See Attachment F. From the text of this email, it is clear that we understood the NSF
instruction to be an exception. And, in keeping with our long-standing commitment to
produce prompt and reliable programming results with NSF grant funds, WGBH filed
the F n R on time and in a manner that was consistent with NSF's instructions.

        With respect to the recommendations proposed in the draft audit report, WGBH
respectfully submits that none of these recommendations are appropriate in this case.

        First, WGBH should not be forced to reimburse the Government for money that
NSF instructed WGBH to claim. As discussed above, we claimed these disputed costs
after receiving specific advice from NSF. Prior to acting on that advice, WGBH worked
to confirm its understanding to ensure that there was no confusion. Had we not received
specific and multiple assurances from NSF, we would not have claimed these expenses
in this manner, because such a practice departs from our customary accounting
procedures. We respectfully submit that NSF must share at least some of the
responsibility in this case. Simply put, it would be an injustice if WGBH were forced to
reimburse the Government for nearly $800,000 of funds that were ultimately spent to
complete the project, when such costs were otherwise allocable and allowable and
contributed to an excellent and well-received science education program which NSF
continues to fund to this day.

         Next, in terms of the recommended additional controls, WGBH believes that its
 current policies and procedures are sufficient to prevent WGBH from charging future
 expenses to an expired appropriation. In this instance, WGBH received specific
 instructions from NSF to depart from its customary accounting practices for this
 particular grant. At the time, WGBH believed that this exception was the result of the
 unique history of this particular grant funding. In the end, WGBH executed the NSF
 advice as provided. Absent those instructions, our normal, stringent controls would
 have prevented us from claiming such expenses and series production would have been
 ha1ted.

      B. Finding and Recommendation No. 2           -- Transactions Lacking Supporting
 Documentation
           1. Summary of the Draft Audit Report

       Finding No. 2 of the draft audit report alleges that three transactions totaling
 $9,395(of which $6,737 would be allocable to NSF) lacked sufficient source
2(ro7
October
Page7
        11,            CpA*cFE


documentation to support that the expenditures were allocable and allowable to the NSF
grants.'

        As a consequence, the draft audit report recommends that we develop and
implement written policies and procedures to ensure that all source documentation
supporting transactions charged to NSF awards are properly maintained and evidence
that the costs claimed are in support of the NSF award.

          2. WGBH's Response

       WGBH has written policies and procedures regarding source documentation for
supporting transactions. See Attachment G for the relevant section 'from WGBH's
Travel and Expense Policies & Procedures and WGBH's policy on Purchasing Card -
Controls and Documentation. We have reviewed these documents, and respectfully
assert that our existing policies and procedures are fully compliant with federal
documentation requirements.

       As noted in the draft audit report, you tested a total of 651 transactions, and were
unable to find supporting documents for three transactions during the audit. Subsequent
to the audit, WGBH was able to locate supporting documentation for two of these
transactions. For your reference, this documentation is attached hereto as Attachments
H and I.

       With this additional documentation, we can offer the following explanation for
each transaction:

        Transaction #1 -- We have the following supporting documentation for this
        transaction: a journal entry of Pcard (purchasing card) charges for $301.00; a
        Pcard statement with a charge of $301.00 for ground transportation; a charge slip
        for $301.00; an invoice for $301.00; individual (2) trips slips for $149.10 and
        $146.00. See Attachment H.

        Transaction #2 -- This transaction for $2,721 (NSF amount $898) had only the
        expense report as part of the documentation. The expense report indicated that a
        transaction receipt (American Express) was attached to the report. We suspect
        that during the process of converting our files to digital media, the receipt was
        lost or misfiled. However, we can assure you that the employee's supervisor and
        the Manager of Accounting Services approved the payment of the expenses in
        accordance with our Travel policy, which requires original receipts to be
        attached when an expense report is submitted. We believe that given the
        circumstances outlined above, the expense should be allowed.

 According to the draft audit report, this finding was a result of your testing
of 651 expenditures, representing 39.60% ($3,641,554) of the total costs
charged to the NSF grants.
October 11,2007
Page 8


        Transaction #3 -- We have the following supporting documentation for this
        transaction: a production insurance list for period 7/01/04 through 9130104
        (showing dates of production, estimated production costs, insured costs, rate,
        total per production); a journal entry showing charge of $6,373.00 to NOVA
        scienceNOW, an accounts payable payment request and invoice that covered this
        expense. See Attachment I.

        The overhead of $894 is a function of applying the federally approved rates to the
 direct expenses in the transactions noted above.

       We respectfully dispute the recommendation in the draft audit report, as we
 believe that these three transactions represent exceptional circumstances and our current
 record retention policies and procedures are adequate and in accordance with applicable
 requirements.

                                                    -
        C. Finding and Recommendation No. 3 Transactions Not Related to the
Award

           1. Summary of the Draft Audit Report

         Finding No. 3 of the draft audit report alleges that WGBH claimed $25,707 in
 costs on award Nos. ESI-9804615iESI-0229297 that were not related to the awards.
 These costs were claimed in three transactions.'

        The draft audit report recommends that we expand controls to include a second
 review by the supervisory accountant to better identify and correct errors made to the
 award. Additionally, the draft audit report recommends that we reinforce current
 policies and procedures to ensure Principal Investigators are properly reviewing costs
 charged to the award to ensure costs are related to and benefit the award.

           2. WGBH's Response

        WGBH respectfully disputes a portion of this finding. As such, we will respond
 in turn with respect to each of the three transactions:

         Transaction #1 -- a payroll transaction (pay period ending 3/25/07) in the amount
         of $8,505, NSF portion $6,302

 WGBH does not dispute the finding with respect to this transaction, as the expense
 (whiie part of the NOVA project) should not have been charged to this grant.


* According to the draft audit report, this finding was a result of your testing
of 159 transactions, amounting to $852,893 (35.7%) of the total costs
charged to NSF award nos. ESI-9804615lESI-0229297.
October 1 1,2007
Page 9

        Transaction #2 -- a payroll transaction (pay period ending 8131/03) in the amount
        of $1 1,340, NSF portion $8,403

WGBH respectfully disputes the finding with respect to this transaction. Although this
transaction took place outside of the grant period, the expense was for research and
development related to the ESI-9804615fESI-0229297 grants and was incurred within
ninety days of the start of the grant period. We believe that this expense should be
allowed under 5 602.2 of the Grant Policy Manual. See Attachment J.

        Transaction #3 -- a fee for a musician in the amount of $6,209, NSF portion
        $4,601

 WGBH does not dispute the finding with respect to this transaction, as the expense
 (while part of the NOVA project) should not have been charged to this grant.

As such, Finding No. 3 in the draft audit should be reduced from $25,707 to
$14,048.~

      D. Finding and Recommendation No. 4          -- Service Center Charges Review
 Not Documented
               1. Summary of the Draft Audit Report

         Finding No. 4 of the draft audit report alleges that WGBH failed to document its
 review of service center charges in compliance with OMB Circular A-122. According
 to the draft audit report, although WGBH's finance department undertakes an annual
 review of the rates used by its internal service centers, WGBH does not document the
 review that it performs to determine its service center usage rates. According to the
 draft audit report, "Mailure to properly document the review of rates charged by service
 centers limits [our] ability to ensure costs charged to NSF are equitable and based on
 actual costs." The draft audit report, however, makes clear that while it was unable to
 ensure the accuracy or reasonableness of the rates, "[tlhere was no indication that the
 rates discriminated against NSF or federal awards, or that the rates were designed to
 recover more costs unallocable to the NSF awards."

       The draft audit report recommends that we develop and implement policies and
 procedures to ensure service center rates are periodically reviewed and documented.




  This reduction is based on $6,302 of payroll transactions funded by NSF
plus $1,281 of fringe benefits on that transaction, plus $4,601 of additional
direct cost for the musician, for a total direct amount of $12,184 attributable
to NSF. With indirect costs of $1,864, the total amount that WGBH
incorrectly claimed is $14,048.
October 1 1,2007
Page 10

              2. WGBH's Response

      We do not dispute that WGBH was unable to provide the auditors with full
 documentation of our review. One of our four service centers did not adequately
 document the review that was performed on its rate setting procedures.

       Recognizing this problem, WGBH Management has instituted a procedure to
ensure that the rates charged by its service centers are reviewed annually and that each
review is adequately documented. As WGBH's Controller, I have created a new
managerial position in the Accounting Department that is specifically responsible for
compliance with federal administrative requirements. Annually, this compliance
manager will meet with the service center departments to review and document the
methodology behind the rate cards. This annual review will include a review of the
prior year's recovery results and a review of the assumptions used in the current year's
rate setting process. In addition, as part of the annual budget process, the service center
departments will be required to submit projected costs and income associated with their
areas of responsibility. We are confident that these changes will ensure that our service
center rates are periodically reviewed and sufficiently documented.

      E. Fhding and Recommendation No. 5            -- Inadequate Procedures to Monitor
 Exchange Rates for Subaward Costs

               1. Summary of the Draft ~ u d i Report
                                               t

         Finding No. 5 of the draft audit report alleges that WGBH did not have adequate
 procedures to reconcile $3.2 million of advances that it made to a subcontractor in U.S.
 dollars with the actual costs incurred by the subcontractor in Canadian dollars.
 According to the draft audit report, this limits our ability to ensure costs claimed on the
 NSF awards are accurate. However, the draft audit report specifically notes that "no
 costs were questioned" on the basis of the audit.

         The draft audit report recommends that we develop policies and procedures to
 periodically perform and document an overall reconciliation of the actual costs incurred
 in foreign currency by subcontractors versus advances paid by WGBH in U.S, dollars.
 According to the draft audit report, such a reconciliation "should allow for a comparison
 of the expenditures and advances in U.S. doll.ass."

               2. WGBH's Response

        We respectfully dispute this finding. WGBH has adequate procedures and
 processes in place to monitor aiid recoiicile the expenditures to ensure that the costs foi
 the project are accurate and valid and, therefore, that the costs claimed on the NSF
 awards are accurate and valid.

       In this particular case, the budget from the sub-awardee was prepared in Canadian
 currency, and the sub-award advances were paid in Canadian currency. We specifically
October 11,2007
Page 11

monitored and reconciled the sub-awardee's expenses in the same currency in order to
eliminate exchange rate fluctuations as a variable. WGBH's books indicated that the
advances paid were recognized in U.S. dollars at the exchange rate existing at the time
of each payment, WGBH monitored expenses for the sub-award on a weekly basis. The
sub-awardee submitted weekly cost reports and trial balances, which were reviewed by
WGBH's Coordinating ProducerlBusiness Director for completeness, accuracy, and
expense validity. Each review also included a review of the cash flow schedule for
possible adjustments to future advances. In addition, WGBH's Coordinating Producer
made several visits to the sub-awardee's office to further ensure the accuracy and
validity of the information being sent. This weekly reconciliation created no unresolved
discrepancies.

        WGBHYspractice for all funded projects is that each project perform an overall
 reconciliation on a quarterly basis in U.S. dollars, prepare a quarterly estimate to
 complete report, and meet with staff from our Budget Office to discuss the project's
 progress. Each quarterly report contains a reconciliation of WGBHYsoverall
 expenditure in U.S. dollars. In the case of the Canadian sub-awardee, each payment
 request form submitted for processing included the Canadian currency amount to be
 paid, the conversion rate, and the U.S. Dollar equivalent.

      We are confident that our policies and monitoring activities for sub-awardee
 advances far exceeds the requirements of OMB Circular A-110.




        Should you have any questions, please do not hesitate to contact me.




 Enclosures



 cc: Mr. David Eid, Audit Manager, NSF-Office of Inspector General
        HOW TO CONTACT
THE OFFICE OF INSPECTOR GENERAL

            Internet
         www.oin.nsf.nov

           Email Hotline
           oiaCijnsf.nov

            Telephone
           703-292-7100




                -
                Fax
           703-292-9158


                -
                Mail
     Office of Inspector General
     National Science Foundation
    4201 Wilson Blvd., Suite 1135
         Arlington, VA 22230
